<html>
<title> - SECURITY AND STABILITY IN AFGHANISTAN: STATUS OF U.S. STRATEGY AND OPERATIONS AND THE WAY AHEAD</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-103]
 
  SECURITY AND STABILITY IN AFGHANISTAN: STATUS OF U.S. STRATEGY AND 
                      OPERATIONS AND THE WAY AHEAD

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           DECEMBER 11, 2007



                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13



                  U.S. GOVERNMENT PRINTING OFFICE
43-957                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
SILVESTRE REYES, Texas               ROSCOE G. BARTLETT, Maryland
VIC SNYDER, Arkansas                 HOWARD P. ``BUCK'' McKEON, 
ADAM SMITH, Washington                   California
LORETTA SANCHEZ, California          MAC THORNBERRY, Texas
MIKE McINTYRE, North Carolina        WALTER B. JONES, North Carolina
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
ROBERT A. BRADY, Pennsylvania        W. TODD AKIN, Missouri
ROBERT ANDREWS, New Jersey           J. RANDY FORBES, Virginia
SUSAN A. DAVIS, California           JEFF MILLER, Florida
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                FRANK A. LoBIONDO, New Jersey
JIM MARSHALL, Georgia                TOM COLE, Oklahoma
MADELEINE Z. BORDALLO, Guam          ROB BISHOP, Utah
MARK E. UDALL, Colorado              MICHAEL TURNER, Ohio
DAN BOREN, Oklahoma                  JOHN KLINE, Minnesota
BRAD ELLSWORTH, Indiana              CANDICE S. MILLER, Michigan
NANCY BOYDA, Kansas                  PHIL GINGREY, Georgia
PATRICK J. MURPHY, Pennsylvania      MIKE ROGERS, Alabama
HANK JOHNSON, Georgia                TRENT FRANKS, Arizona
CAROL SHEA-PORTER, New Hampshire     BILL SHUSTER, Pennsylvania
JOE COURTNEY, Connecticut            THELMA DRAKE, Virginia
DAVID LOEBSACK, Iowa                 CATHY McMORRIS RODGERS, Washington
KIRSTEN E. GILLIBRAND, New York      K. MICHAEL CONAWAY, Texas
JOE SESTAK, Pennsylvania             GEOFF DAVIS, Kentucky
GABRIELLE GIFFORDS, Arizona          DOUG LAMBORN, Colorado
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
                    Erin C. Conaton, Staff Director
                Julie Unmacht, Professional Staff Member
              Aileen Alexander, Professional Staff Member
                    Caterina Dutto, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Tuesday, December 11, 2007, Security and Stability in 
  Afghanistan: Status of U.S. Strategy and Operations and the Way 
  Ahead..........................................................     1

Appendix:

Tuesday, December 11, 2007.......................................    55
                              ----------                              

                       TUESDAY, DECEMBER 11, 2007
  SECURITY AND STABILITY IN AFGHANISTAN: STATUS OF U.S. STRATEGY AND 
                      OPERATIONS AND THE WAY AHEAD
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McHugh, Hon. John M., a Representative from New York, Committee 
  on Armed Services..............................................     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Gates, Hon. Robert M., Secretary, Department of Defense, and Adm. 
  Michael Mullen, USN, Chairman, Joint Chiefs of Staff, 
  accompanied by: Ambassador Eric S. Edelman, Under Secretary for 
  Policy, Department of Defense, and Lt. Gen. John F. Sattler, 
  USMC, Director of Strategic Plans and Policy, Joint Chiefs of 
  Staff..........................................................     4

                                APPENDIX

Prepared Statements:

    Gates, Hon. Robert M.........................................    59

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Conaway..................................................    66
    Mr. Larsen...................................................    65
    Mr. Murphy...................................................    66
    Mr. Skelton..................................................    65

Questions Submitted by Members Post Hearing:

    Ms. Shea-Porter..............................................    71
  SECURITY AND STABILITY IN AFGHANISTAN: STATUS OF U.S. STRATEGY AND 
                      OPERATIONS AND THE WAY AHEAD

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                        Washington, DC, Tuesday, December 11, 2007.
    The committee met, pursuant to call, at 2:01 p.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Ladies and gentlemen, thank you. And we 
realize this is before our voting hours. But, Mr. Secretary and 
Admiral, we appreciate your giving us your time today. And as I 
understand it, correct me if I am wrong, you have a drop-dead 
time in--after 2 hours and 15 minutes. Am I correct?
    Secretary Gates. Yes, sir. But if the committee wishes to 
proceed, I am prepared to throw both Admiral Mullen and Admiral 
Mullen's representative and my Under Secretary for Policy under 
the bus, and they are prepared to take our chairs and continue 
the discussion.
    The Chairman. We will be glad to proceed after that. Thank 
you very much. And welcome to you. And I am extremely pleased 
to have you with us, to discuss our way forward in Afghanistan. 
It could not be more critical at a time like this, and I am 
real concerned that given our preoccupation in Iraq, we have 
not devoted sufficient troops and funding to Afghanistan to 
ensure success in that mission. Afghanistan has been the 
forgotten war. The opportunity has been squandered, and now we 
are clearly seeing the effects. We must reprioritize and shift 
needed resources from Iraq to Afghanistan. We must once again 
make Afghanistan the center force in the war against terrorism. 
Our national security and Afghanistan's future are at stake. 
Our allies and our partners must do more, but we must, of 
course, lead the way.
    Secretary Gates, I know you just returned from a trip to 
Afghanistan this last week. And during your trip, you expressed 
concern about the continued increase in violence in that 
country, and you were also greeted with pleas from President 
Karzai and senior Afghan officials for more assistance. Suicide 
bombings and improvised explosive device (IED) attacks are up. 
The Afghan Security Forces are facing real shortfalls, problems 
of narcotics, corruption, slow development persist. At the same 
time despite a string of tactical victories in Afghanistan this 
year, we hear that intelligence officials are increasingly 
worried about a looming strategic failure in the country and 
point to signs that the larger war effort there is 
deteriorating.
    The National Security Council (NSC) has also reportedly 
concluded that the only kinetic piece of the Afghan war is 
showing substantial progress while improvements in other areas 
continue to lag.
    To be clear, there have been some truly impressive gains 
made since 2001 and there continue to be some real success 
stories. At the same time, our North Atlantic Treaty 
Organization (NATO) allies must do much more in fulfilling 
their commitments in freeing their forces from so-called 
national caveats that limit their ability to fight. In other 
words, the rules of engagement. However, we cannot expect our 
allies to step up if we don't demonstrate a strong commitment 
to the success of the mission.
    So I hope you will tell us what is the way forward in 
Afghanistan. What is being done to ensure that necessary troops 
and funding are devoted to that mission?
    Finally, I want to mention your recent call for the U.S. to 
commit dramatically more funding and effort to civilian 
instruments of national security. Mr. Secretary, I couldn't 
agree more. For too long our military has had to undertake 
effective civilian missions because--for lack of commitment 
from the State Department as well as other civilian agencies. 
One good example is the team of agriculture and business 
development experts from the Missouri National Guard who are 
working to revitalize Afghanistan's agricultural sector. These 
folks are excellent farmers as well as soldiers. But they can't 
substitute for civilian efforts throughout our government. The 
civilian agencies must adapt their organizations and personnel 
requirements for today's security needs, but they also must 
have the resources they need to meet the mission.
    Mr. Secretary and Admiral, we thank you so much for being 
with us. It is a personal pleasure to welcome you and to 
receive your testimony and your advice in regard to this very, 
very important part of the world.
    The gentleman from New York, Mr. McHugh.

  STATEMENT OF HON. JOHN M. MCHUGH, A REPRESENTATIVE FROM NEW 
               YORK, COMMITTEE ON ARMED SERVICES

    Mr. McHugh. Thank you, Mr. Chairman. Let me echo your words 
about the importance of this hearing today. And I want to 
commend you, Mr. Chairman. I know this is an opportunity you 
have been attempting to arrange for us for some time, and 
clearly this is a critically important hearing.
    Afghanistan is a vital front in the global war against 
terror, against radical Islamists, and achieving security and 
stability in Afghanistan is important for the Afghan people, 
but equally important I would argue for the citizens of this 
country and the international community.
    Mr. Chairman, let me begin by expressing the regrets of 
both the Ranking Member, Duncan Hunter, and the next Ranking 
Member, Mr. Saxton, for their inability to be here today. As 
you know, Mr. Chairman, given the vague reason, all the 
schedules involved, this has been a very difficult hearing to 
pull together. I know they would very much wish to be here, but 
I am honored to be sitting in their stead and provide this 
opportunity for this very important committee and, of course, 
for the Congress at large to hear about the current conditions 
on the ground with respect to this vital component in the war 
against radical Islamists.
    And let me add my words of welcome and appreciation with 
yours, Mr. Chairman, to Mr. Secretary. Mr. Secretary, welcome 
home, having just returned from what I understand is your third 
trip to Afghanistan in about a year or so in your official 
capacity as Secretary of Defense. That is a very admirable 
record and we are looking forward to hearing your on-the-ground 
and strategic assessment of the opportunities and equally 
important, of course, the challenges facing Afghanistan in the 
days ahead.
    Admiral Mullen, welcome home to you as well. And thank you 
for being here after returning from a quick trip to the Middle 
East. We welcome you for what I believe is your first 
appearance in front of this committee in your current position 
as Chairman of the Joint Chiefs. Congratulations on that very 
esteemed position, and we look forward to your testimony too.
    Gentlemen, your remarks here today offer our members an 
opportunity to reflect on the tactical successes and challenges 
we are seeing today in Afghanistan. Today I personally, and I 
know all the other members do as well, look forward to 
receiving your assessment of the current strategic environment 
and gaining a better understanding of how the Department of 
Defense (DOD) is working with its interagency and international 
partners to advance security, stability, and economic 
prosperity at the strategic level.
    We also look forward to hearing how we intend to establish 
the conditions necessary for the Afghan government and the 
people of that great country to continue progress for future 
generations. As the Chairman noted, since 2001, the United 
States and the international community, in cooperation with 
Afghanistan, have remained committed to abolishing those 
conditions that foster support and safe harbor for radical 
Islamists and rebuilding Afghanistan as a moderate and stable 
nation.
    Given the baseline of where we started in 2001, this nation 
has made notable progress, including the adoption of a new 
constitution. Elections led to their first democratically 
elected President and Parliament and established a democratic 
forum to deliberate and resolve differences, growth in the size 
and capability of the Afghan National Security Forces, 
construction of new schools, health clinics and roads 
throughout the country, personal freedoms previously forbidden 
by the Taliban, and new opportunities for women to participate 
in civic and economic life.
    Unfortunately, again, as the Chairman I think very 
accurately pointed out, progress in Afghanistan has been met by 
serious challenges as well. Security has deteriorated since 
2006, particularly in the south. The NATO-led international 
security assistance forces (ISAF) maintain shortages and 
critical military capabilities and national caveats, again as 
the Chairman mentioned, as to where and how their troops 
operate.
    Poppy cultivation and opium production are at their highest 
levels. Gaps in existing training and equipping of the Afghan 
National Army (ANA) and the Afghan National Police (ANP) and 
the Taliban and al Qaeda continue to take refuge and regroup in 
Pakistan's federally administered tribal area (FATA) and 
northwest frontier province.
    Today we hope to learn what the Department of Defense is 
doing to address these challenges, particularly its efforts to 
sever the Taliban's resurgence of violence and influence, 
resolve NATO shortcomings, support reconstruction and 
redevelopment, and accelerate and expand the training and 
equipping of the Afghan National Security Forces. By their 
actions, the Afghans, Americans and our international partners, 
military as well as civilian, have demonstrated the resolve to 
achieve security and stability in Afghanistan.
    Our discussion today should focus on what we are doing here 
in Washington to ensure their achievements on both the 
strategic and tactical level, as well as the resources needed 
for the near-term and long-term successes.
    With that, Mr. Chairman, given the time constraint, I would 
yield back to you and look forward to the remainder of the 
hearing.
    The Chairman. I thank the gentleman.
    Again, Mr. Secretary and Admiral Mullen, we welcome you and 
we appreciate you being with us today. Mr. Secretary.

 STATEMENTS OF HON. ROBERT M. GATES, SECRETARY, DEPARTMENT OF 
 DEFENSE, AND ADM. MICHAEL MULLEN, USN, CHAIRMAN, JOINT CHIEFS 
  OF STAFF, ACCOMPANIED BY: AMBASSADOR ERIC S. EDELMAN, UNDER 
SECRETARY FOR POLICY, DEPARTMENT OF DEFENSE, AND LT. GEN. JOHN 
F. SATTLER, USMC, DIRECTOR OF STRATEGIC PLANS AND POLICY, JOINT 
                        CHIEFS OF STAFF

               STATEMENT OF HON. ROBERT M. GATES

    Secretary Gates. Thank you, Mr. Chairman. I will make a few 
remarks and turn the floor to Admiral Mullen before we take 
your questions.
    Mr. Chairman, Representative McHugh, members of the 
committee, thank you for inviting us to testify before you 
today. I have a longer statement that we have submitted for the 
record.
    As you noted, I have just returned from Afghanistan, where 
I met with Afghan officials, U.S. commanders, our civilian 
colleagues and our European allies, and this is an opportune 
time to discuss our endeavors in that country. I will tell you 
that when I took this job, it seemed to me that the two highest 
priorities we had were our wars in Afghanistan and Iraq. If I 
am not mistaken, I just finished my sixth trip to Iraq and I 
think maybe my fourth trip to Afghanistan.
    Notwithstanding the news we sometimes hear out of 
Afghanistan, the efforts of the United States, our allies in 
the Afghan government and people have been producing some solid 
results. If I had to sum up the current situation in 
Afghanistan, I would say there is reason for optimism, but 
tempered by caution.
    Projects that will have a real impact on the lives of 
citizens are underway with the construction of utilities, roads 
and schools. The Congress has appropriated about $10 billion in 
security and reconstruction assistance to Afghanistan for 
fiscal year 2007, almost three times the previous year's 
appropriation. I thank you, the Members of Congress, for your 
strong support of this effort.
    Admiral Mullen will speak in more detail about some of the 
activities made possible by the funding increase with regard to 
provincial reconstruction teams (PRTs), Afghan Security Forces, 
as well as our own endeavors.
    We have just passed the first anniversary of NATO's taking 
over all responsibility for helping Afghans secure their 
democracy. The first half of 2007, NATO and coalition forces 
took the initiative away from the Taliban. Contributions from 
our civilian colleagues helped secure these military gains. 
Afghan forces played a key role, demonstrating their improved 
capability in the last year, and indeed Afghan Security Forces 
have led the fight to retake Musa Qala in recent days.
    As you know, in 2007 the number of terrorist attacks in 
Afghanistan increased. The insurgents have resorted more and 
more to suicide bombs and improvised explosive devices similar 
to those found in Iraq. As I learned during my visit, some of 
the uptick can be attributed to increased Afghan and ISAF 
operations. The Taliban and their former guests, al Qaeda, do 
not have the ability to reimpose their rule. But only in a 
truly secure environment can reconstruction projects take root 
and rule of law be consolidated. That environment has not yet 
been fully achieved, but we are working toward it.
    As you know, the drug trade continues to threaten the 
foundations of Afghan society and this young government. To 
attack this corrosive problem, a counternarcotic strategy is 
being implemented that combines five pillars: alternative 
development, interdiction, eradication, public information and 
reform of the justice sector. I hope that the coming year will 
show results.
    There also needs to be more effective cooperation of 
assistance to the government of Afghanistan. A strong civilian 
representative is needed to coordinate all nations and key 
international organizations on the ground. We and others have 
worked with the Karzai government to identify a suitable 
candidate. I am hopeful this exhaustive search will be 
completed soon.
    The final point I will turn to, and is an extremely 
important one--and both you, Mr. Chairman, and Mr. McHugh 
referred to this--is the willingness of our NATO allies to meet 
their commitments. Since ISAF assumed responsibility for all of 
Afghanistan in October 2006, the number of non-U.S. troops has 
increased by about 3,500. NATO still has shortcomings, 
shortfalls in meeting minimum requirements in troops, equipment 
and other resources.
    I leave for Scotland tomorrow for a meeting of Defense 
Ministers of the countries involved in Regional Command (RC) 
South, and this will certainly be on the agenda. The 
Afghanistan mission has exposed real limitations in the way the 
Alliance is organized, operated and equipped. I believe the 
problem arises in large part due to the way various allies view 
the very nature of the Alliance in the 21st century. We are in 
a post-Cold War environment. We have to be ready to operate in 
constant locations against insurgencies and terrorist networks.
    I would also like to stress the role Congress can play in 
this endeavor. If other governments are pressured by this body 
and by the Senate as well as by those of us in the executive 
branch, it may help push them to do the difficult work of 
persuading their own citizens of the need to step up to this 
challenge.
    Let me close by telling you about a region I visited last 
week, a region that demonstrates why I am cautiously hopeful 
about the mission in Afghanistan. For years, and even decades, 
the Khowst region has been a hotbed of lawlessness and 
insurgent activity. Things are very different today. Under the 
strong leadership of an honest and capable Governor, and with 
Afghans in the lead, there have been remarkable gains as 
security force, local organizations, and the U.S.-led 
provincial reconstruction team with representatives from the 
State Department, U.S. Agency for International Development 
(USAID), and the Department of Agriculture (USDA) have worked 
in tandem to promote civic and economic development. Where last 
year there was one suicide bombing per week, now there is on 
average one per month.
    As the Governor said to me, through our combined efforts 
more has been accomplished in the past eight months than in the 
prior five years. Khowst is a model of the integration of hard 
and soft power in a counterinsurgency campaign and it is an 
example of what can be done in other regions.
    You have asked us to talk about the way forward. I would 
tell you that I proposed at the last NATO Defense Ministerial 
that NATO put together a strategic concept paper looking 
forward three to five years, where do we want to be in 
Afghanistan and what will be the measures of progress? We will 
be talking about that in Scotland over the next couple of days. 
The rest of the Alliance Defense Ministers have embraced this 
idea and my hope is that we can present such a strategic 
concept paper to the heads of state at their meeting in 
Bucharest next spring.
    A moderate, stable Afghanistan is crucial to the strategic 
security of the United States and its allies. The elected 
leaders of the countries that make up our Alliance have said as 
much. Afghans have the will to keep their nation in the 
democratic fold, and we need to match their determination with 
the necessary resolve and resources to get the job done.
    [The prepared statement of Secretary Gates can be found in 
the Appendix on page 59.]
     Secretary Gates. Admiral.

                STATEMENT OF ADM. MICHAEL MULLEN

    Admiral Mullen. Thank you, sir. Thank you, Mr. Chairman. 
Representative McHugh, distinguished members of this committee. 
Thank you for your continued support of the men and women who 
serve this Nation, and their families. And thank you for the 
opportunity to appear before you today to talk about our 
operations and our commitment in Afghanistan.
    I was last there in early October, just after assuming my 
current post. By then, some 10 months had elapsed since my 
previous visit to the country. My major concern in early 2007, 
in fact my conviction, was that there would be a markedly 
resurgent Taliban. I was only half right. Though the Taliban 
has grown bolder in recent months, particularly in the south 
and west, they have lost a significant number of their 
leadership and failed to fully reassert themselves, reverting 
instead to terror attacks, thuggery and intimidation.
    As a result, and not surprisingly, violence is up 27 
percent over a year ago, with a significant increase in the 
number of suicide attacks. In Helmand Province alone, violence 
has risen more than 60 percent. And according to a recent poll, 
23 percent living in the southwest say people in their areas 
support the Taliban, triple what it was just 3 years ago. Al 
Qaeda and foreign jihadi fighters, supported in some cases by 
Iran, add to the deadly mix.
    As disconcerting as these trends are and we are all very 
concerned about them, there is some good news. Six years after 
the fall of the Taliban, most Afghans still see that overthrow 
as a good thing. Nearly three out of every four support the 
United States presence there and most want us to succeed. Our 
provincial reconstruction teams are having a real impact on the 
quality of thousands of lives. Six times as many children that 
were attending school in 2001 are now, in 2007, hard at work on 
their education. And today that figure, 6 million students, 
includes nearly 2 million girls. And respect for women's 
rights, though not as high as we would like to see it, remains 
the majority desire.
    Some today at this hearing may argue that it is time to 
reassess our strategy, time to take a closer, more critical 
look at what we are doing and why we are doing it. I am not 
sure, perhaps so, but I am sure of this, Mr. Chairman: it is 
important, critical work and it must continue. We must 
recognize that, unlike the poppy which grows so easily there, 
we are sowing seeds of freedom in unaccustomed soil. It will 
take time to bear fruit. It will require patience and it will 
require pragmatic realization of three things.
    These thoughts are what I really want to leave with you 
today. First, the war in Afghanistan is, by design and 
necessity, an economy of force operation. There is no getting 
around that. Our main focus militarily in the region and in the 
world right now is rightly and firmly in Iraq. That is not to 
say the brave men and women in harm's way in Afghanistan--
American, Coalition, Afghan--are not valued or supported or in 
any way less important. It is simply a matter of resources, of 
capacity.
    In Afghanistan, we do what we can. In Iraq, we do what we 
must. That is why--and this is my second point--it remains 
critical that NATO continue to lead and lead well. In assuming 
command of the International Security Assistance Force, the 
Alliance has taken on enormous responsibility and asserted its 
relevance in the 21st century for this out-of-area mission. It 
is, as I described, an extraordinarily complex mission with 
many of the same dimensions and requirements our Coalition 
forces have seen in Iraq. There is a limit to what we can apply 
to Afghanistan by comparison. But what seems to be growing is a 
classic insurgency that requires a well-coordinated 
counterinsurgency strategy, fully supported by security 
improvements, counternarcotics expertise, economic growth, the 
open exchange of ideas and, of course, political and diplomatic 
leadership.
    And while I applaud NATO for stepping up to the plate, the 
ISAF is plagued by shortfalls and capability in capacity and 
constrained by a host of caveats that limit its abilities.
    Let me echo the Secretary by urging member NATO states to 
do all they can to fulfill the commitments they have already 
made, completely and with as few conditions as possible.
    Lastly, we must realize in the long run--and here 
Afghanistan is very much like Iraq--that real enduring success 
lies not in our own progress, but in the progress of the Afghan 
people and the government to assert themselves, to determine 
their own fate.
    The Secretary asked me to speak a little about our 
investments in fiscal year 2007. It is in this regard that the 
investment most applies. Most of the $10 billion, some $7.4 
billion, went to training and equipping the Afghan National 
Security force, the Army and the Police, which are now on track 
to field 14 Army brigades and 82,000 National Police by 
December 2008.
    We recently increased the authorized strength of the Afghan 
Army to 80,000. And we expect to generate up to nine more 
battalions over the next six months, which will quite frankly 
push the limits of our trainer capacity, if not exceed it. I am 
watching this closely.
    Afghan soldiers are already executing more complex roles in 
security operations. Just last month, for example, ANA forces 
together with ISAF, repelled the Taliban from the Golestan 
district of Farah Province and led more than 30 other 
operations. This week as you know, they are leading with 
Coalition forces in a critical campaign to retake the village 
of Musa Qala.
    We have enjoyed less success with the Afghan National 
Police. There are at present more than 75,000 police, but they 
are not fully trained and there is too much corruption. Only a 
third of the required mentors are in the field and we lack 
sufficient mentoring teams to field more. Training police 
forces is a skill not many countries do well, especially in the 
military. So we have a long way to go.
    Mr. Chairman, to wrap up, you have said that some consider 
Afghanistan the forgotten war. I understand the sentiment. But 
it is not forgotten, sir. Not by me and not by any of the joint 
chiefs. We know and we remember the great sacrifices being made 
by each of the over 26,000 soldiers, sailors, airmen and 
Marines and civilians deployed there as well, as their families 
who so steadfastly support them.
    Yesterday I crossed paths in the airport in Shannon, 
Ireland, with several hundred returning after a year in 
Afghanistan. They are extremely proud of what they have done. 
They have made a difference and we are proud of them. We know 
and remember our commitment to the people of Afghanistan and to 
their future. And we know and remember our obligation to you 
and to the American people who have so steadfastly supported us 
in this endeavor.
    Thank you and I stand ready to answer your questions, sir.
    The Chairman. Admiral, thank you very much.
    I just have one question, Mr. Secretary. Would you 
elaborate again on your thoughts, on your comments regarding 
NATO and the multiyear proposal that you discussed a few 
moments ago?
    Secretary Gates. I think, Mr. Chairman, that in many 
respects the mission of NATO has changed over the past year. I 
think when NATO leaders and Riga accepted NATO responsibility 
for Afghanistan, that most of them were looking at it primarily 
as a stabilization and economic development and reconstruction 
endeavor. And I think that shaped their view of what their 
commitments would be and the conditions in which they would be 
working.
    As the Admiral has indicated, we are in a rather different 
environment, particularly in the east and in the south, which 
has taken on--which in both places has taken on more of the 
characteristic of a classic counterinsurgency. It seems to me 
that at this point, it is important for NATO to take a step 
back and, as I suggested, through a strategic concept paper, 
look at where we want to be in three to five years in 
Afghanistan, where we hope the Afghan government will be, the 
ways in which we intend to get there and ways in which we can 
measure progress. I will be pursuing this in Scotland. 
Individual allies have undertaken an assessment of how they see 
the situation in Afghanistan. We will bring all of those 
together, NATO will, and my hope is that we can put together a 
thoughtful and persuasive approach that takes a longer-term 
view of where we want to be.
    I think part of the problem that the European governments 
are having in selling their publics on the importance of their 
commitment in Afghanistan is a lack of understanding in Europe, 
particularly of what we are trying to accomplish and why it is 
important. So I think that the strategic concept paper can 
address this issue as well.
    The Chairman. Thank you very much. Mr. McHugh.
    Mr. McHugh. Thank you, Mr. Chairman. I remember when I came 
to this committee 15 years ago, I was of the opinion the 
further you removed yourself from the Ranking Member and the 
Chairman, the brighter the members got. And I still believe 
that. So we have got an opportunity to get to some of the other 
members here today, and I want to do that. But I would, if I 
might, like to probe three questions. The first two, Mr. 
Secretary, in your more complete written statement, you made 
the comment that also hindering the government from extending 
its authority and influence across the country are the 
insurgent al Qaeda sanctuaries in Pakistan, and weapons and 
financing coming from Iran. I would like to hear your 
assessment, having just returned from the region, as to the 
viability of the frontier concept of the Musharraf government 
as to their efforts to try to stabilize the areas into the FATA 
and into Swat number one and number two. What is the reality of 
the involvement, if any, with the Iranian government and their 
attempts, perhaps sub rosa, to try to disrupt the stabilization 
of Afghanistan?
    Secretary Gates. First of all, I think that I should say 
that the government in Pakistan has been one of our most 
steadfast allies in the war on terror since September 11th and 
has been immensely helpful to us. That said, the conditions on 
the border clearly are a problem. And there are areas, 
particularly in North and South Waziristan, that are 
sanctuaries for both al Qaeda and for the Taliban, and as long 
as that remains unconstrained, I think we will have a 
continuing problem.
    I think one of the top agenda items that we have with the 
government of Pakistan is working together in terms of how we 
can--what they can do more unilaterally, how we can work with 
them to help them be more effective, and whether there are 
instances in which we should, or must, take action by 
ourselves. But clearly the situation there on the border is one 
that complicates our effort fairly significantly.
    With respect to Iran's involvement, we have I think pretty 
good evidence of the Iranians providing some weapons and some 
training. I would say that the evidence is a lot less 
voluminous than we have in Iraq of Iranian involvement, and I 
would say at this point, while I think it is worth noting and 
bringing light to bear on the Iranians' efforts to interfere in 
Afghanistan, as yet I think it is not playing a decisive role.
    Mr. McHugh. Mr. Chairman, I don't know if Admiral Mullen 
would wish to make any additional comments.
    Admiral Mullen. The only comment I might add on the border 
is that there have been significant operations there in the 
eastern portion of Afghanistan over the last many months, and 
specifically it has been quiet over the last two to five months 
there as far as the kinds of things that have been going on, at 
least directly affecting Afghanistan as best we can tell 
militarily.
    Mr. McHugh. Gentlemen, you heard the opening statement of 
the Chairman, distinguished Chairman of the committee. His 
concern is shared by many, and that is that somehow Iraq versus 
Afghanistan is an either/or situation; that the operations in 
Iraq are inhibiting our ability to operate in Afghanistan and 
the suggestion--I am not attributing this to the Chairman--but 
to others who have made the comment that somehow it might be 
better to refocus on Afghanistan in--given our operational 
limitations that, Admiral Mullen, you spoke about at the risk 
of Iraq, is this an either/or situation, or do you view both of 
them to be critically important?
    Secretary Gates. Let me comment and then ask Admiral Mullen 
to comment. My view is we need to be successful in both. Our 
interests are very much engaged in both at this point. One 
significant difference, though, is that a multinational 
coalition, a multinational alliance, NATO, has formally taken 
responsibility for the situation in Afghanistan. We are willing 
to step up to the plate when there is a need. In anticipation 
of what the intelligence indicated would be a significant 
Taliban offensive last spring, I extended a brigade of the 10th 
Mountain Division.
    I have also extended our helicopter capabilities in 
Kandahar by six months because NATO had not been able to find 
replacement helicopters and I considered it important for our 
success. We preempted the offensive in the spring, and the 
offensive in the spring became a NATO offensive. So, contrary 
to a lot of the intelligence forecasts of last fall and last 
winter, in fact, we were very successful against the Taliban's 
efforts; and we have shown where we have to, we can apply our 
own assets as well. But I think my own view is I am not ready 
to let NATO off the hook in Afghanistan at this point.
    As I indicated, the Taliban are in no position to take back 
control of Afghanistan. They can't even hold a village like 
Musa Qala when we turn our attention to it, and we have had 
real success in Regional Command East, as I mentioned in my 
remarks, in terms of a regular counterinsurgency effort under 
General Rodriguez. So my view is, A, we have to be successful. 
B, I think we have shown this year that although the levels of 
violence are higher, the Taliban have not been able to make 
significant gains. In fact, one could argue that they have 
hardly made any gains at all. And I think at the same time, 
third, we need to keep our allies accountable to the 
commitments they have made and keep working that challenge.
    Admiral.
    Admiral Mullen. I likewise think that success in both Iraq 
and Afghanistan is important. I don't think it is an either/or. 
I think that, to just reinforce what the Secretary has said, 
that it is very important that those who have committed, those 
nations who have committed, that they step up. That in fact 
when I was in Afghanistan, specifically in October, I was 
encouraged by the evolving development and execution of the 
Afghan Army, and that has been very much a part of this week's 
operation--or this recent operation in Musa Qala. There are 
Afghan Army leaders, battalion commanders and brigade 
commanders, that our people, our soldiers, are singling out as 
terrific leaders. So I think that what the Secretary has done 
to extend where we needed to was the right answer at the right 
time.
    So I think it is again important to succeed in both, and 
that we resource both. And from that standpoint, one other 
comment. The Secretary talked about the need to--or the work, 
the important work that has gone on, to bring in an individual 
to make a difference with respect to the governance area, the 
economic area, to bring all of these aspects of a future 
together for the government and the people of Afghanistan is 
also very important.
    Mr. McHugh. Thank you, gentlemen. Thank you, Mr. Chairman.
    The Chairman. Thank you. Mr. Secretary, we certainly don't 
want to let NATO off the hook. I am personally convinced that 
there needs to be a positive result in Afghanistan; otherwise, 
the whole future of NATO might very well be at stake.
    Under the five-minute rule, Mr. Spratt.
    Mr. Spratt. Admiral Mullen, Secretary Gates, thank you very 
much for your testimony.
    Admiral, you acknowledge quite candidly in your testimony 
that what we can do in Afghanistan is constrained by resources. 
Obviously those constraints come from our commitments and 
engagement in Iraq.
    First question is: To what extent has our involvement in 
Iraq constrained or deprived us of the means we need for 
success in Afghanistan?
    Admiral Mullen. I am really, just to pick up on what the 
Secretary said with respect to an expectation this year that 
the Taliban would be very successful, they weren't. And, in 
fact, because we were able to both anticipate that and focus on 
it, we really presented them with some significant setbacks.
    The resource issue is a very delicate balance, but I am 
very much where the Secretary is in the sense that it is 
important that NATO step up. There is additional capability, in 
fact, that they can provide.
    And I would also say that since Secretary Gates has put 
this kind of pressure on NATO, there are additional commitments 
that have been made, both in number of forces and, in fact, 
some additional helicopter capability. So I think that will 
continue to be important. Having that, I am satisfied right now 
that we are in a position where we are not going to undergo--I 
can't predict the future perfectly--but not undergo any 
significant setbacks there. NATO has only been in charge of 
this force for a little over 12 months. That is a growing 
process. We were learning there ourselves. So the resources 
that we are applying I think are having a significant impact.
    Mr. Spratt. When we discuss what the base force would be, 
redesigning our force structure in the 1990's, two major 
regional conflicts (MRCs) was the stated goal, and then it was 
compromised down to maybe one MRC, and in another regional 
conflict holding the adversary at bay. Are we seeing this sort 
of one-and-a-half scenario where we can fight one MRC 
vigorously and only hold at bay the other MRC, the other 
adversary, until we can shift our resources from one theater to 
the next?
    Admiral Mullen. No, sir. I wouldn't equate Afghanistan to a 
second MRC or the forces that we have committed there to be 
representative of the second MRC.
    Mr. Spratt. Would you and the Secretary say that thus far 
the best we have been able to achieve is to hold at bay the 
Taliban?
    Secretary Gates. No, sir. I think we are doing better than 
holding them at bay. I think they cannot succeed militarily. I 
think where we need progress--one of the unsourced 
requirements, in fact the major unsourced requirement, now is 
for about 3,000 trainers. But those are mostly trainers for 
police, and this is an area where a number of countries in the 
world have the opportunity and the capability to be able to 
help. The European Union (EU) has accepted responsibility for 
taking part of this on. My view is they haven't done enough and 
they can provide a lot more. But we are doing a lot more than 
holding the Taliban at bay. They cannot win militarily at this 
point. What we need to do is improve our counterinsurgency 
skills so that when we do establish security in an area, we can 
hang onto it and bring the economic development and 
reconstruction together with the security situation to make 
sure that the population stays on our side.
    Mr. Spratt. One final question. We have given, as I 
understand it, about $10 billion in aid to the Pakistanis since 
the outbreak of the situation in Afghanistan. Have we gotten 
$10 billion in value received in terms of assistance, 
particularly in the northwestern provinces, out of the 
Pakistanis?
    Admiral Mullen. We have invested significantly there with a 
strategic partner that has been at our side from the beginning, 
since 9/11, and I think that is important. We clearly have a 
significant amount of that money that has been invested in 
forces that would permit him to evolve so that he can fight 
that fight. And I personally think from a military standpoint 
that has been a good investment.
    Mr. Spratt. Thank you.
    The Chairman. I thank the gentleman. Mr. Wilson of South 
Carolina.
    Mr. Wilson. Thank you, Mr. Chairman, and Admiral, 
Secretary. Thank you very much for being here today. I am 
particularly happy to see both of you. I was in Kabul eight 
days ago, prior to your visit, and it was extraordinarily 
important to me. I had the privilege of going with Congressman 
Spratt earlier in the summer. I have visited with the 218th 
brigade of the South Carolina National Guard now three times in 
the last six months. And each time I go--this was the unit I 
served in for 28 years--the persons serving in that brigade are 
just so honored to be serving our country. They are serving as 
mentors and training the Army units and Police units. And I am 
particularly grateful for the leadership of Brigade General Bob 
Livingston. He is the commander of the forces. I hope you met 
with him. He is one of South Carolina's leading business 
persons. It is a really classic case of soldier-civilians. We 
are just so grateful for their service.
    As I think about this, though, it is indicated in the 
material that we received, that NATO ISAF has stated on 
December the 8th that requirements of shortfalls, 25 
operational mentor and liaison teams to mentor the security 
forces and different other shortfalls. What is being done to 
address the shortfalls? And I know last week you announced 
additional M-16s, additional vehicles, increase in the size of 
the security forces. But specifically with the shortfalls 
identified, what can be done?
    Secretary Gates. Well, the principal, as I indicated, the 
principal shortfall as identified to me is about 3,000 
trainers, and the vast majority of those, the requirement is 
for the police, whereas the admiral indicated at the beginning, 
we continue to have real concerns. There is a shortfall on 
helicopters. There is a shortfall, as you suggested, on 
operational mentoring and liaison teams. My worry, quite 
frankly, is, as we press for other nations to bring forward 
these operational mentoring and liaison teams, that they will 
not be adequately trained.
    And so one of the things that I think we need to focus on 
is at the same time we are pressing other countries to provide 
these Operational Mentor and Liaison Teams (OMLTs), as we call 
them, we need to make sure that they are also adequately 
trained before they come into theater so that they can actually 
make a difference with the Afghan units they are assigned to. 
So I think that is an important thing, both filling the 
requirement for the OMLTs and making sure they are adequately 
trained.
    There is a need for approximately three maneuver 
battalions. We are talking to a variety of nations about 
getting those additional battalions into the theater. As I say, 
we will continue to have those conversations in Scotland over 
the next couple of days. But it is a continuing effort with our 
NATO allies to get them to step up to the plate.
    Another area I have been pressing them very hard on is 
helicopters, and one of the things they are looking at now--
part of the problem with the helicopters is that regular 
helicopters really don't work very well in Afghanistan. They 
need a different kind of engining because of the altitude and 
the requirements. So there is actually something of a scarcity 
of helicopters in the Alliance that are able to deal with this 
problem. But they do recognize the need to do this. I have 
refused to extend our helicopter cut/chop to ISAF beyond the 
end of January, and Supreme Headquarters Allied Powers Europe 
(SHAPE) is taking steps now to find lternatives.
    Admiral Mullen. The only thing I would add is on the 
criticality of the OMLTs. In fact, in a meeting in NATO a few 
weeks ago, I met with my counterparts. The chiefs of their 
militaries recognize this need, recognize the impact it can 
have and in fact have provided, have committed to a handful 
more. We are aware of the gap, we know the impact, and it is a 
vital, vital need.
    Mr. Wilson. I also had an opportunity with Congressman 
Spratt to visit the police training facilities in Jalalabad. 
And I was really impressed by the contractors in also helping 
in police training. What is the status of contractors, 
different companies that may be assisting in the training, in 
addition to the National Guard or Active Duty forces?
    Admiral Mullen. Actually--I don't know. I would have to 
take that one for the record and get back to you.
    Mr. Wilson. Again, I was very impressed and I believe it 
is--DynCorp was the contractor. But again, I really wanted to 
report how grateful the South Carolina Army National Guard is. 
This is the largest deployment of troops from our State since 
World War II, and the people of South Carolina are very 
supportive and we are very grateful for our troops. And I yield 
the balance of my time.
    The Chairman. I thank the gentleman. Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman. Thank you, gentlemen, 
for being here this afternoon.
    Secretary Gates, you gave a speech November 26th of this 
year at Kansas State University, which I thought was a great 
speech. In fact, I think it could be the kind of speech around 
which you could organize a government, I mean that seriously. I 
mean, I think you could dress this thing up and make it an 
inaugural speech.
    Admiral Mullen. Please, no.
    Dr. Snyder. But I would like to spend just a couple or 
three minutes. I am just going to quote. I am going to kind of 
jump through it, so it may not hang together so well. But, 
quote, my message--this is Secretary Gates' speech on November 
26th. Quote, ``My message is that if we are to meet the myriad 
of challenges around the world in the coming decade, this 
country must strengthen other important elements of national 
power both institutionally and financially, and create the 
capability to integrate and apply all the elements of national 
power to problems and challenges abroad. In short, based on my 
experience during seven Presidents, I am here to make the case 
for strengthening our capacity, use soft power and for better 
integrating it with hard power. Economic development, 
institution building and the rule of law, promoting internal 
reconciliation, good governance, providing basic services to 
the people, training and equipping indigenous military and 
police forces, strategic communications and more. These along 
with security are essential ingredients for long-term 
success.''
    You go on, ``So we must urgently devote time, energy and 
thought to how we better organize ourselves to meet the 
international challenges of the present and the future.''
    I will jump ahead a couple of pages. Quote, ``Most people 
are familiar with the cutbacks in the military and 
intelligence, including sweeping reductions of manpower, nearly 
40 percent in the active Army, 30 percent in the CIA's 
clandestine service. What is not well-known and arguably even 
more shortsighted was the gutting of America's ability to 
engage, assist and communicate with the other parts of the 
world, the soft power which had been so important throughout 
the Cold War.''
    And again jumping ahead, ``But these new threats also 
require our government to operate as a whole differently; to 
act with unity, agility and creativity. And they will require 
considerably more resources devoted to America's nonmilitary 
instruments of power.''
    And the last short quote I want to read is, jumping ahead 
again, quote, ``We lack a similar benchmark for other 
departments and institutions. What is clear to me is that there 
is a need for a dramatic increase in spending on the civilian 
instruments of national security: diplomacy, strategic 
communications, foreign assistance, civic action and economic 
reconstruction and development.''
    I believe it was Dr. Chu, I think at one of our hearings 
some time ago, who briefly discussed in response to maybe a 
question from Mrs. Davis about foreign language training, that 
we either currently, or last year, had funding coming out of 
the DOD budget going to public elementary schools to encourage 
kids to take foreign languages because we are having such a 
problem with foreign language skills in the United States to do 
the kinds of things that you are talking about. The issue of 
research and development for industries so that our economic 
competitiveness, the whole issue of health care, we have a lot 
of disagreement in this body about how do we deal with health 
care in the civilian sector, but we all agree it is a big 
burden on business and the ability of business to compete 
economically. I understand the Southern Command (SOUTHCOM) is 
really working on economic development as being a tool for 
ultimately solving the immigration problems we have along our 
southern border. Until the desire to come to the United States 
economic engine goes away, we are always going to have 
immigration issues.
    My question is--you talk about an increase in funding for 
soft-power modalities. Do you anticipate that next year's 
budget proposal by the President will reflect that kind of 
dramatic increase in spending in those areas that you talk 
about?
    And my second question is, as some of you most recently 
have come out of academia, what parts of soft power are 
actually in the nongovernment part of the United States? I 
would argue most of it. But would you respond to this? This is 
a chance for you to do a second speech here in the remaining 
two or three minutes.
    Secretary Gates. First of all, I know that Secretary Rice 
has asked for a substantial increase in the size of the Foreign 
Service and in the State Department budget, and I assume within 
that for AID and strategic communications as well. I am not 
familiar with the specific numbers, but I know she has asked 
for that increase, and I assume the Administration has 
supported that. She also has proposed, and the President has 
endorsed, the creation of this Civilian Reserve Corps that 
would have many of the skills of people that carry out the kind 
of tasks that I referred to in that speech.
    So there are at least two fairly significant initiatives on 
the table where there is a request for funding that would 
increase our capabilities in this arena.
    In terms of soft power, you know, it is one of the things 
that I referred to at Kansas State, was the fact that Texas A&M 
University has been both in Afghanistan and Iraq, in 
agricultural development since 2003, and so has Kansas State 
and a variety of other land grant universities around the 
country. And one of the things that I refer to in that speech 
is the need to figure out how to integrate these 
nongovernmental capabilities at the same time as we try and 
strengthen our capacity within the government.
    We just met this morning on the staffing for U.S. African 
Command (AFRICOM) and AFRICOM's mission and strategic 
communications. And there are land grant universities very 
active in West Africa and various parts of Africa involved in 
research and in agricultural development and so on, and how do 
we harness that in a way that doesn't inhibit it, but at the 
same time integrates it with the other activities of 
government? And frankly, I just don't think we have the proper 
institutional framework in our government to be able to do 
that, and I am not sure I have got the answers on how to 
structure the government.
    The premise of the speech was this is the 60th anniversary 
of the National Security Act of 1947 that created the Central 
Intelligence Agency (CIA), the National Security Council (NSC), 
what would become the Department of Defense, the Department of 
the Air Force and so on. I said if you were writing a National 
Security Act of 2007 for a 21st century national security 
policy, how would you structure the government? What new 
institutions would you create?
    And my hope is that through the process of our election 
debate the next year, that we take the opportunity to think 
about and talk about how you would create new institutions that 
enable us to exercise something in addition to military power 
in pursuing our national security interests. Part of that has 
to be how to figure out in the 21st century how you integrate 
the incredible contribution the nongovernmental organizations 
(NGOs) make, both universities private charities and others, 
into the efforts of the government. And I think that is a 
challenge that faces us all.
    The Chairman. I thank the gentleman.
    Before I call Mr. Kline, Admiral, you said that in 
Afghanistan we do what we can; in Iraq we do what we must. 
Would you tell us the difference?
    Admiral Mullen. It really speaks to the resource issue that 
was brought up earlier. Iraq, I was very specific in my 
comments that Iraq is the military priority right now. It is 
where we have the vast majority of our resources. And we have 
resourced Afghanistan to the level that we think we can right 
now, given that balance. We have talked about the military 
challenges associated with the Taliban, with the borders, with 
providing not just military trainers, but trainers for police, 
with equipping a growing Army. And more than anything else, 
what that is meant to say is that is reflective of both the 
priorities, the resources, and the balance.
    The Chairman. Thank you.
    Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here and for terrific 
public service, both of you, for so many years.
    Mr. Secretary, I wish you enormous good luck in your trip 
to Scotland and what comes out of that. I would share the 
Chairman's comment that we cannot let NATO off the hook. They 
may have formally stepped up to the plate, I think were your 
words or were the Admiral's earlier, but I would argue they 
have not actually, in many cases, because they have not 
provided the resources and because of the caveats which exist 
all over the place. You cannot embed troops from a NATO nation 
that cannot go out on the wire, so to speak. So there is a lot 
of work to be done there.
    To Mr. Spratt's comment about putting more resources, more 
troops, I think he was suggesting, perhaps shifting them into 
Afghanistan, again, I would say that if we were to do that 
somehow, to put another division or so into Afghanistan, we 
would, in fact, be letting NATO off the hook, and there would 
not be that pressure for them to step up, really, to the plate, 
actually to the plate.
    So I have no advice here for you, sir, except to say our 
prayers are with you, and I hope you are successful in that 
effort to get them to step up to the plate.
    For a lot of reasons, I want success in Afghanistan soon. 
My son is going as part of the 101st, in 21 days, for 12 or 
more months in Afghanistan, and he is a helicopter pilot. To 
the point of terrain that is not compatible with helicopter 
flying, I was there with a congressional delegation (CODEL) 
about two months ago, and it is hard for me to imagine a more 
inhospitable place to operate helicopters. It is just brutal.
    Let me just go very quickly--because I know the five-minute 
clock is going to run out--to something that Chairman Skelton 
brought up with some pride, I am sure, having to do with the 
Missouri National Guard. They are sending some farmers over 
there. When I was in Jalalabad two months ago, speaking to the 
Americans and to the PRT and, in fact, to some of the Afghanis, 
it was clear that they felt a need for this. Here is a case 
where we have, again, this crossover between some civilian 
capability.
    The members of the National Guard are not full-time 
soldiers and have a civilian capability, and they are going 
over there to help fill in this PRT. So, again, harkening back 
to my friend Dr. Snyder's comments and your response to how we 
get civilian soft power involved there, in the short term, we 
sort of have that coming together in the form of the Missouri 
National Guard.
    As a Department, are you looking at this as a short-term 
model, a middle-ranged model, a long model or a onetime event, 
of sending over this sort of civilian expertise, specifically 
from the National Guard?
    Secretary Gates. Well, I think that, again, I will take a 
stab and then invite the Chairman. But it seems to me that we 
do have these capabilities, whether it is engineering or 
agriculture, in the National Guard that brings tremendous 
personal experience to bear.
    At the same time, what we need are people whose full-time 
careers are teaching other people how to do these things. This 
is the role that the Provincial Reconstruction Teams play. And 
our commanders will tell you that even a handful of people in 
one of these PRTs makes a huge difference on the ground, in 
terms of what they bring to a village, to a province. You talk 
about a force multiplier; they are really quite extraordinary.
    But I think the longer-term solution is either in a new 
institutional capacity or in something like this Civilian 
Reserve Corps, where we have people who do this as a full-time 
responsibility and as a full-time career rather than as a 
National Guard deployment, where they are making use of the 
skills that they have brought to the Guard as a means of 
helping out. But the truth is that is a longer-term solution. 
We have to deal with the here and now, and that is where the 
National Guard brings some extraordinary capabilities to bear.
    Let me just say one thing, though, that I should say for 
the record and then ask Admiral Mullen to address that issue. 
We should not use a brush that paints too broadly, in terms of 
speaking of our allies and friends. Some of our allies have 
more than stepped up to the plate. The British, the Canadians, 
the Australians and several others have played a really 
significant and powerful role in Afghanistan. They have met 
their commitments; they have exceeded their commitments. They 
are outside the wire, and they are doing the full range of 
responsibilities. So there are a lot that have the caveats, 
there are a lot that have not stepped up, but some have.
    Mr. Kline. Fair enough. Thank you.
    Admiral Mullen. Just quickly, sir, if I can talk, I will 
just start with NATO.
    I know that we have certainly put a focus on them today, 
but as someone who commanded in NATO in 2004, NATO, who had 
never taken an out-of-area mission before, was looking at this, 
recognizing where they needed to go, and it has stepped up to 
it. And in many ways, it has done things when a lot of us 
certainly wondered whether NATO would do this or not.
    I want to commend NATO and the leadership for that and 
second what the Secretary said about the members whose forces 
have stepped up, including some who were caveated and who 
recently have been adjusting those caveats. And so it is 
certainly something that constantly we are going to have to pay 
attention to. And they have made a big difference in some key 
areas.
    The Missouri National Guard deployment in February is--we 
anticipate that this is a model we will continue to use. In 
addition, I am told there is at least one other university who 
is interested in this.
    So how do we match this up? I think, in the long run, it is 
this difference between how we are structured as a government 
and what our capacity is to meet this full-spectrum need, not 
just the military need. We may be in a transition, but until we 
get through to how we should be organized and have the capacity 
to be able to do, I think the military is going to be called on 
to take advantage of the kinds of skills that are resident in 
the Missouri brigade.
    Mr. Kline. Thank you very much.
    Thank you, Mr. Chairman, for your indulgence.
    The Chairman. The Chair recognizes Adam Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Thank you, Secretary Gates and Admiral Mullen, for being 
here.
    I guess I am much more troubled, actually, by what is going 
on in Afghanistan than what some of the testimony might have 
led us to believe, and that is based primarily on what I have 
read and also on communications with military personnel over 
there, the direction in which that is going. But also, one of 
the biggest reasons I am troubled by it is because of the 
importance of the region. This is where al Qaeda had a safe 
haven. In the whole rest of the world, we can speculate about 
whether or not they can get a safe haven. We have no doubt that 
they can get a safe haven in this part of the world because 
they have done it before. Arguably, they still have it right 
now in northwest Pakistan. And that makes it, to my mind, the 
top priority in what we are supposed to be fighting here, which 
are the people who hit us on 9/11 and elsewhere, al Qaeda and 
their senior leadership. This is where they are and where I 
think more of our focus should be.
    Also, you know, in talking to various military personnel 
over there, there is no question that they believe we do not 
have enough troops over there. We do not have enough troops to 
pursue the Taliban when they pop up out of their holes. We do 
not have the resources over there right now to enable us to 
prosecute the war against them to the degree that they have. 
And I have heard that from General McNeil, and I have heard 
that from many, many different layers of folks over there, that 
they are concerned about that.
    Now, I will agree with you that I think the Taliban has a 
heck of a time grabbing and holding territory right now. But 
the numbers that I think are troubling--the violence is up, and 
I, for one, will never accept the argument that if the violence 
is up that means we must be winning because they are desperate. 
I do not think that holds.
    Second, the more troubling statistic is one you cited in 
your opening testimony, that support for the Taliban in 
Afghanistan is up. We had done a very effective job of crushing 
that shortly after 9/11. It is back up. That is definitely 
worrisome to my mind, which brings us all sort of back around 
to the issue of Iraq in the balance.
    I do not remember exactly how you put it, but, more or 
less, you said that Iraq is, by definition, more important than 
Afghanistan. Therefore, it gets the resources and, to some 
degree, Afghanistan gets what is left over. That is not relying 
on your words for the moment; it is just relying on the 
numbers. We have 164,000 U.S. troops in Iraq, roughly. We have 
roughly 25,000 in Afghanistan. Yes, we get support from our 
NATO allies. Even adding them up, we are still about a third of 
what we have in Iraq. But I think we also have to admit that 
the level of support that we would like from our NATO allies is 
not coming any time soon.
    I agree with Mr. Kline that we should not let NATO off the 
hook. We should try to keep the pressure on. I also agree with 
you, Secretary Gates, that part of the problem there is that 
they do not quite see our mission the way they should. I agree 
they should, and we need to make that case, but right now, it 
is what it is, and they are not bringing in the troops. And 
between letting NATO off the hook and letting al Qaeda and the 
Taliban once again get a safe haven, I will go ahead and opt 
for letting NATO off the hook.
    So the point is, and the real question I have is, that we 
have decided, apparently, that Iraq is roughly six times more 
important than Afghanistan. That does not make sense to me, 
given how important Afghanistan is to al Qaeda and the Taliban 
and given the fact that they have had the safe haven there.
    So, having made the statement--and I will disagree with Mr. 
McHugh a little bit. Yes, we can do more than one thing at one 
time, and I understand that. But we are clearly choosing to 
make Iraq a vastly higher priority than Afghanistan, and I 
think that is a mistake.
    I am just wondering if you could address the issue of why 
Iraq is that much more important than Afghanistan. If it is 
not, why are we dedicating so many more resources to it than to 
Afghanistan?
    Secretary Gates. Let me take a crack at that and then 
invite the Chairman to comment.
    First of all, in those areas where there is increased 
support for the Taliban, most of the intelligence that I have 
seen says it has more to do with a lack of proper governance 
from Kabul and also with corruption of the local police and 
with an inability to provide governmental services to the 
people.
    In addition, another issue that has been controversial in 
Afghanistan has been the whole question of civilian casualties. 
Part of the problem is that there are, from time to time, 
civilian casualties--or innocent civilian casualties. The other 
part of the problem is the Taliban lies, and they just make it 
up, if there is an attack, about a lot of civilian casualties.
    So I think in those areas where the acceptance of the 
Taliban--and admittedly, it has gotten worse, but it was, as I 
recall, still 23 percent of the population or something like 
that.
    Mr. Smith. Twenty-seven was the number, I think you said.
    Secretary Gates. So I think it has more to do with 
governance than it does with a lack of sufficient U.S. forces.
    The other problem----
    Mr. Smith. That, too, is a resource issue, I mean, to some 
degree. Wouldn't you agree?
    Secretary Gates. Well----
    Mr. Smith. To some degree.
    Secretary Gates. But if it is a resource issue, it is more 
a civilian resource issue, in terms of training police and 
having proper governance.
    The other aspect is, in terms of the al Qaeda safe haven, 
to the degree they have a safe haven, it is not in Afghanistan, 
where we would put additional troops if we wished to, but, 
rather, in Pakistan. So the issue is, how do we work with the 
Pakistanis to make them more effective, and what can we do 
together or, perhaps, independently? But with that, there are 
clearly not going to be major force movements across the 
border. There is no question that we have to worry about al 
Qaeda operating on the Pakistani side of the border.
    I would say also that we have the most significant U.S. 
presence in Afghanistan in Regional Command East, which is the 
part that borders these areas of Pakistan and that are of 
greatest concern.
    Admiral.
    Admiral Mullen. The only thing I would add to what I said 
previously is that the al Qaeda threat in Iraq has grown to be 
significant and still is significant; although, they are very 
much on the run right now. We do not see--certainly in 
Afghanistan, I do not see the kind of comparable threat. That 
does not mean down the road that could not be the case, but 
certainly we do not see that right now. I have spoken----
    Mr. Smith. I am out of time. I will send a letter to you 
and will follow up on that last point.
    Admiral Mullen. Sir?
    Mr. Smith. I would like to send a letter and follow up on 
that last point----
    Admiral Mullen. Sure.
    Mr. Smith [continuing]. Because I certainly do not concur 
with that analysis, but I am over time, and I respect the 
Chairman on that.
    Admiral Mullen. Okay.
    The Chairman. I thank the gentleman.
    Dr. Gingrey.
    Dr. Gingrey. Thank you, Mr. Chairman.
    Mr. Secretary, Secretary Gates, Chairman Mullen, Admiral 
Mullen, I am very appreciative of your being here today, and I 
appreciate the work and the leadership that you are providing 
for our country in very, very difficult times of war.
    I have actually got a question for each of you.
    Secretary Gates, you mentioned, I think, a couple of times 
during the hearing that you did not think that the Taliban 
could win militarily. I am grateful that you are our guy and 
not their guy, but if you were their guy, how would you 
recommend they proceed to win? What would the playbook look 
like? What can they do? If they cannot win militarily, what 
would you recommend they do to ultimately achieve victory?
    Then, as you are thinking about that, Mr. Secretary, I want 
to address my second question to Chairman Mullen.
    A couple of our members have already mentioned this. My 
good friend from Minnesota, Colonel Kline, referenced these 
national caveats. You spoke a little bit about them. I think 
you mentioned that you have been a NATO commander in your 
distinguished career.
    How did we ever get to a situation where our allies, our 
team members, if you will--the North Atlantic Treaty 
Organization, NATO--could set the rules of how they play? It 
would be like having someone on your football team whose 
parents would say, ``Well, my son will play but only if he can 
be the running back.'' That is an oversimplification, but I 
just do not understand how we ever got ourselves into a 
situation with our Western European allies where they could say 
to a commander, to an ISAF commander, that I am not going to go 
out on patrol after five o'clock in the evening or I do not 
want to go to the south of the country because it is a little 
hot down there, speaking militarily ``hot.''
    How did that ever occur? Why do we put up with that? I just 
cannot imagine why we would let those kinds of national caveats 
continue.
    By the way, parenthetically, what is the United States' 
national caveat in regard to what our brave men and women are 
willing to do, the 15,000 or so who we have contributed--9,000, 
I guess it is--to this NATO force in Iraq?
    Secretary Gates. Well, I am glad I do not have a really 
specific plan because I do not think I would want to give it to 
them for winning. But I think, if I were in their shoes, I 
would aim at outwaiting us and at bringing divisions both among 
our allies and among the Afghans themselves. I think you can 
sort of think about different tactics to accomplish both of 
those things, but I think taking us on directly is not the way 
they are going to win. If they are to have any success at all, 
it will be because they have outwaited us or because they have 
been successful in sowing enough doubt and division among us 
that it will cripple our effort.
    Admiral Mullen. As to the NATO piece of how did we get 
here, I am not a NATO historian but, as I indicated, I did 
command. And what I experienced then and what I see now in NATO 
is a commitment on the part of individual countries that 
reflects, in many cases--or, actually, in every case--the will 
of their people and of their governments to do certain things. 
And they offer up certain capabilities that are requirements in 
the overall laydown of achieving the mission. NATO makes the 
decision to accept these or not.
    This is an alliance. It is 26 members. Everybody gets one 
vote. I think it is a critical alliance. I think it is a 
critical alliance for us in the long term in the world that we 
are living in right now. We have differences, but when we get 
together and when we do agree, it becomes a very powerful force 
in terms of achieving long-term objectives. There are things 
that countries are doing right now in Afghanistan that, three 
or four years ago, I would have not predicted they would do, in 
terms of the fighting that they are doing.
    So that is why the persistence here is important and the 
pressure is important, and I have seen change. It just takes 
time. Each country and what they commit to is a reflection of 
its government and its people. And some of those governments 
are coalition governments that are very much on the edge of 
sustaining themselves, and others are not. I see that reflected 
routinely in the alliance.
    Dr. Gingrey. Well, Mr. Chairman, that is somewhat 
reassuring, but I still come back to the point that it seems 
like every member, all 26, should play by the same rules.
    Mr. Secretary, I was hoping to get the response that I got 
from you because I think it is absolutely right. I think that 
they sit back and wait us out and look long-term and understand 
that division within our ranks, not militarily but politically, 
is to their advantage. You, of course, and I have no control 
over how the media reports these things. But I think, clearly, 
as you suggest, they sit back and play a waiting game and wait 
for us to eat our own. Then that is the way for them to 
ultimately achieve victory.
    Again, I thank both of you for being here. I think your 
testimony has continued to be tremendously helpful, and I thank 
you for your leadership.
    Mr. Chairman, I yield back.
    The Chairman. The gentleman from North Carolina, Mr. 
McIntyre.
    Mr. McIntyre. Thank you, Mr. Chairman.
    Thank you both, gentlemen.
    As I mentioned to both of you just prior to today's 
hearing, I had an opportunity to be in Afghanistan at the first 
of this month, a few days ago, to thank our troops and also to 
discuss the progress being made with General Dan McNeil 
concerning the Taliban, General McNeil's being a native of 
southeastern North Carolina and also a former commander at Fort 
Bragg. We also went to five African nations and spoke with the 
Presidents or Prime Ministers of those nations about the new 
AFRICOM, the U.S. Africa Command, and we are very pleased with 
their receptivity and willingness to work with us. I commend 
you and your efforts on the new Africa Command.
    When we were there, General Cone, with whom I also had an 
opportunity to meet, said there are 414 police districts which 
are, in his words, the heart of corruption in Afghanistan. Mr. 
Secretary, you have also, two or three times and in your 
written testimony, used that word, ``corruption,'' when 
referring to the police.
    One thing that concerned me that I wanted to ask you, 
specifically--and then I have two other quick questions--is how 
the U.S. is coordinating efforts to train the police currently 
with the European Union. Because General Cone said that Germany 
was in the lead on this; then it went to the European Union 
police efforts; then to the State Department; and now it has 
gone back to the DOD. I am wondering if this has gone full 
circle.
    Has it now landed back in our lap, with regard to training 
the police?
    Secretary Gates. We have essentially, I think, taken on the 
gap. The truth is that the European Union, as I recall, 
committed to provide 160 trainers, something like that. There 
are about 70 in Afghanistan. Of those, there were probably 40 
who were already there and just exchanged one hat for another.
    So I would say that the European effort on the police 
training has been, to be diplomatic about it, disappointing. 
General Cone has tried to fill the gap with some of our 
trainers.
    Let me ask the Admiral to address that.
    Admiral Mullen. I think that, in many ways--to follow on to 
what the Secretary said, it did come back to us. We know that 
it is a vital mission, I would call it, as far as the training 
mission right now. It is really the center of gravity, getting 
the police force trained.
    There is concern for corruption. There have also been some 
significant steps taken by the government with respect to 
reducing corruption, but we have a long way to go. I think it 
will continue to be with us.
    From a mission standpoint, we feel that is a big part of 
the way forward and the way out, and we cannot sit by and wait 
for other trainers to show up. Training police, as I said in my 
opening statement, is a mission not a lot of countries do well. 
Those that do need to, and we are going to continue to need 
that help.
    Mr. McIntyre. Thank you.
    I want to ask you a couple other quick things.
    I would urge you, in Scotland, to bear down hard on them 
regarding their cooperation for police training. And thank you 
for your attention to that.
    Also, during my meeting with General Cone in Afghanistan, 
he said that the Afghanistan infantry had 3 of 48 battalions 
that he would say were independent. The rest of them, in his 
words, need mentors.
    You have spoken about mentoring today. How many battalions 
do you expect to be in the lead a year from now in Afghanistan?
    Admiral Mullen. I would specifically have to get back to 
you. We have an expectation that they will be fully trained and 
equipped by the end of 2009. There is a very small number that 
has the lead right now. We also have mentors in every single 
battalion, as General Cone probably told you as well.
    So I do not know the exact number. I would really have to 
get back with where we think we will be 12 months from now.
    Mr. McIntyre. Do you think that could even double from 
three to six?
    Admiral Mullen. Yes, I would expect it would. I really 
would have to go back to General Cone and get where he is, in 
terms of his expectations based on what he has seen on the 
ground.
    Mr. McIntyre. All right. If you would follow up, that would 
be great.
    Lastly, I want to follow up on what Chairman Skelton asked 
when you said that the priority right now for the military is 
Iraq, and then you followed up with a similar statement to Mr. 
Smith.
    In your best professional judgment, is any progress being 
made to locate Osama bin Laden? If so, do you think he is along 
the Afghan-Pakistan border?
    Admiral Mullen. There is a concerted and a continued effort 
to try to do that, and I really would not want to say any more 
about that right now.
    Mr. McIntyre. Do you feel like any progress is being made 
in that effort?
    Admiral Mullen. I would really like to--there is a 
concerted effort. It is an area of focus, and I would like to 
not be more specific than that.
    Mr. McIntyre. All right. If I may, I would like the private 
opportunity to follow up.
    Thank you, Mr. Chairman.
    The Chairman. The gentleman from Pennsylvania, Mr. Shuster.
    Mr. Shuster. Thank you, Mr. Chairman.
    Thank you, Secretary Gates and Admiral Mullen, for being 
here today.
    It has been my view for the past couple of years that 
Afghanistan--my view has been that it is a more difficult, 
long-term problem to build democracy in Afghanistan because 
they lack resources. They have no industrial base, the 
population is highly uneducated, and they have no 
infrastructure to build upon. So, although the situation is 
much more violent and difficult in Iraq, it seems to me it is a 
longer-term project.
    I wonder if you could comment on that.
    Secretary Gates. Yes, I guess I can because I fought 
another war in Afghanistan 20 years ago, and my experience is 
that, in contrast to Iraq, where one of the challenges we faced 
was that Iraq had an incredibly highly-centralized government 
where everything went to the center for a decision, 
historically Afghanistan has had a relatively weak central 
government, with powerful warlords and tribal influences. And 
so trying to create a central government and especially one 
where you do not have resources--I mean, at the end of the day, 
Iraq is a rich country, and there are a lot of resources 
available for them to develop the country. That is not the case 
in Afghanistan.
    Just as an example, the Iraqis will put about $9 billion to 
$10 billion into their own security forces this coming year 
during fiscal year 2008. The budget for the Afghan National 
Army is about $250 million. It is the difference in the 
resource base, and the Afghans are dependent on outside help to 
pay for the force that they are building.
    I think that there are some significant cultural and 
historical differences between the two. And Afghanistan's 
building a central government that has credibility and that 
delivers services to the people is, I would agree, a longer-
term enterprise.
    Mr. Shuster. The second question I have is--and I think you 
are the right person to ask this to--as to the historical 
lesson that I think we should take away from Afghanistan. When 
the Soviets were driven out, there was a power vacuum left, and 
we withdrew from the region, for all intents and purposes. The 
Taliban, an extremist group, got a foothold, and then they 
allowed al Qaeda to get a foothold.
    Do you think that is a historical lesson that we should be 
able to take and to look at in the same context with Iraq if we 
were to allow that to happen?
    Secretary Gates. Well, I would just say, with respect to 
Afghanistan, that I feel a certain sense of personal 
responsibility. I was Deputy Director of the CIA and then the 
Deputy National Security Advisor during the period when the 
Soviets did withdraw from Afghanistan.
    The United States essentially turned its back on 
Afghanistan, and five years later came the first attack on the 
World Trade Center. So, you know, one of the lessons that I 
think we have learned is that, if we abandon these countries 
once we are in there and engaged, there is a very real 
possibility that we will pay a higher price in the end.
    Mr. Shuster. In my trip I took in July to Pakistan, many 
people in the Pakistani government kept reminding us of that 
lesson because they believe that the same thing could occur in 
Iraq.
    The final question is: We keep talking about NATO. I do not 
know that I have heard the answer. What can we do to get NATO 
to step up to the plate, one?
    Second, do you get a sense that it is their military people 
or is it strictly their political establishment that is 
stopping them from engaging and from going outside the wire and 
having the resources?
    Secretary Gates. I would tell you that I think most of the 
governments in NATO get it; they understand the need. But as 
the Chairman indicated, a number of them are minority 
governments or they are coalition governments depending on 
others.
    I would say one of the areas where we have not performed 
well enough in Afghanistan as an alliance is in strategic 
communications and, I would say, strategic communications 
within Afghanistan to let the Afghan people know that 42 
nations are in there trying to help them and what they actually 
are accomplishing in terms of road-building and hospitals and 
schools and everything else.
    But it is also strategic communications with respect to 
Europe, and that would have to be done out of Brussels. I have 
talked to the NATO Secretary General about this. It seems to me 
we need to do a much better job of helping the Europeans 
understand why we are there.
    This is an easier problem for America. One of the reasons 
why I think there is a much broader consensus in this country 
about the need to be in Afghanistan is that we know we were 
attacked out of Afghanistan. That is not the case in Europe. 
There, it is an easier sell as sort of an economic 
reconstruction and development program and kind of an 
idealistic endeavor, rather than its being rooted in the very 
security of the country.
    Now, as they deal with an increasing terrorist problem of 
their own, maybe it will be brought home more vividly to them, 
but I think that part of the area where we need to improve as 
an alliance is in trying to help explain.
    That is one of the reasons that I have proposed this 
strategic concept paper, not only because it will help us 
figure out where we think we need to be in three to five years 
in Afghanistan, but it also will serve as a basis for helping 
to persuade people in Europe and elsewhere as to why this is an 
important mission.
    Mr. Shuster. Thank you very much.
    The Chairman. Mr. Secretary, isn't that an information 
operations problem?
    Secretary Gates. Yes, sir.
    The Chairman. Mr. Udall.
    Mr. Udall. Thank you, Mr. Chairman.
    Welcome, gentlemen--Mr. Secretary and Admiral.
    I want to turn to the situation in eastern Afghanistan and 
in western Pakistan, but before I do that, I want to 
acknowledge, Mr. Secretary, your emphasis on soft power and 
that it won the Cold War for us.
    I think those are the most powerful weapons we have--the 
power of the example of our people, of our economic system and 
of our history. Of course, General Petraeus has made this clear 
in the case of a former commandant in the Marine Corps, General 
Jones.
    In that spirit, I think many of us in the Congress believe 
that the central front on the war on terror is in this region 
of Afghanistan and Pakistan, that border region. There is a 
common defense of our position in Iraq, which is that it is 
better to fight them there than to fight them here. My response 
more recently has been, you know, you are right, but let us 
fight the right ``them'' in the right ``there,'' and I am not 
sure that is in the middle of the civil war in Iraq.
    Setting aside that discussion, clearly al Qaeda is based 
and deeply rooted in this region of the world. And I am 
curious: Tactically, have we seen an increase in the 
infiltration of insurgents from Pakistan into Afghanistan?
    Admiral, what is the DOD doing to account for a further 
possible destabilization of this crucial and lawless area?
    Admiral Mullen. We have, actually, over the last several 
months, as I indicated, in great part attributed to the forces 
that are operating in the eastern part, seen it become 
relatively calm as far as the infiltration there on that 
border.
    I think, in the long run, it is that we need to continue to 
work with the Pakistani government to assist them in this 
challenge. I think all governments that are affected by this 
recognize that this is a serious issue and that we will 
continue to focus on it. In fact, I know, just from the 
counterpart discussions that we have had, military to military, 
between our two countries, that at the senior military level 
this is recognized in Pakistan as well.
    The specifics of being predictive about exactly when we are 
going to have what kind of impact would not serve any purpose 
right now. We all know it is a big problem, and we know that we 
are going to have to continue to not just focus on it but to do 
something about it.
    Secretary Gates. I was just going to say, when I was there, 
I spent a lot of time, a fair amount of time, with General 
Rodriguez, the commander of Operation Enduring Freedom (OEF) 
and RC-East. As I mentioned in my remarks, I traveled up to 
Khowst province, which is a real success story. I think that, 
really, of all of the parts of Afghanistan where we have a 
counterinsurgency strategy that is fully developed, it is in 
RC-East, and I think it is one of the reasons the area has been 
somewhat quieter.
    The real problem area, I think, for us right now in terms 
of activity is RC-South.
    Mr. Udall. Admiral, are we in close contact with the 
Pakistani military, given the unrest, the political unrest, 
that exists in Pakistan? I know General Kayani, I think, has 
taken charge of the military. Would you care to comment on 
that?
    Admiral Mullen. I spoke with General Kayani late last week 
by way of making just my personal initial contact with him. I 
know that Admiral Fallon had spent time with him before. He is 
a man who is held in very high regard by many people in the 
military whom I have spoken to about him who know him.
    We have had significant military engagement with the 
Pakistani military for a number of years. It has continued even 
through this most recent crisis, and I am confident that it 
will continue in the future.
    Mr. Udall. Mr. Secretary, if I might turn back to NATO and 
to your comments on the mindset of the Europeans, it was very 
helpful to me and I think to the committee, because we clearly, 
as Americans, know from where we were hit on 9/11.
    Have you thought through what would happen if there were 
pull-outs on the part of the NATO alliance, particularly with 
individual members of NATO? What would we do to convince them 
not to do so?
    Secretary Gates. Well, Afghanistan is a place where, I am 
happy to say, in a lot of instances we are seeing people plus-
up their forces rather than thinking about pulling them out. In 
one or two places where there has been a decision to reduce 
their forces, other NATO countries have stepped in to 
supplement that. Just to give one example, the Dutch are going 
to reduce their presence by a few hundred, and to a significant 
extent, the French are going to step in and help fill that gap.
    So, as I say, there are a number of countries that are 
willing to step up. I just cited an example of one where we are 
seeing people prepare actually to increase their presence and 
to be more involved.
    Mr. Udall. Thank you, gentlemen.
    The Chairman. Before I call Mr. Turner, Mr. Secretary, who 
is the leading strategist in the conflict in Afghanistan?
    Secretary Gates. I would say that it is a combination of 
General McNeil and General Rodriguez.
    Admiral.
    Admiral Mullen. Sure.
    The Chairman. Thank you.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    And, Mr. Secretary and Admiral, thank you for being here 
and for the opportunity to address the issue of Afghanistan 
today.
    Many of the issues that you have raised--issues of 
corruption in the government or in the Afghan national police, 
cross-border insurgency, the drug trade, difficulties in 
completing reconstruction, and a relationship with our NATO 
allies--have been issues that have been ongoing as we have 
looked at the Afghanistan area.
    One difference, obviously, is the shift that has occurred 
in Pakistan, and I want to follow up on Mr. Udall's comments on 
Pakistan.
    As I have traveled to Afghanistan twice, during those two 
times the contrast of how we looked at the border issue not 
only was focused, in part, on the Taliban's organization but 
also on how Pakistan was either assisting us or how their 
policies were not assisting us or how they were making things 
more complicated.
    How has what is going on in Pakistan affected what we see 
with the Taliban and with al Qaeda? How are you guys addressing 
what shifts might be occurring in Pakistan?
    Admiral Mullen. Clearly, with the challenges and with the 
crisis that Pakistan has been in recently with respect to 
President Musharraf, we were very concerned about the attention 
that that obviously would draw specifically off of that 
challenge in that part of Pakistan.
    To some degree, it is back to the military-to-military 
piece. I mean, we clearly made this known to our counterparts. 
And there was, certainly, in that event some loss of focus 
represented and some setbacks there. But recently, literally in 
the last couple of weeks, I am more optimistic in that regard 
with what the Pakistani Army has done. Clearly, not to 
certainly speak for what that country will do, but with the 
situation calming now, I am optimistic that we can have the 
right focus in that area.
    Even prior to the crisis, though, it was a very, very tough 
area to get at because of the history, the tribal aspects of 
it. And so I think it is going to take a concerted effort over 
an extended period of time to have the kind of impact we need 
to have in that safe haven area, which we want to eliminate.
    Secretary Gates. I would just add that I think this has 
been a part of Pakistan that, to a considerable extent 
historically, has not been under firm control of the central 
government in Islamabad. I think one of the things that has 
changed just in recent months in Pakistan has been a growing 
appreciation on the part of the government of Pakistan that 
what is going on along that frontier raises the potential 
threat to stability in Pakistan itself.
    So I think they are beginning to take it more seriously 
than was the case in the past. And I think, in part, it is 
because they now see that it has some potential impact for 
them.
    Mr. Turner. Mr. Secretary, in my last trip to Iraq, we had 
the opportunity to stop in Jordan at the international police 
training facility there, and many of us came away concerned 
with the level of knowledge that we have about who we are 
training--concerns that perhaps we might be training people who 
are, in fact, joining the insurgency.
    In Afghanistan, you talked about the issue of police 
training, in getting our allies to participate in that process. 
With Iraq, people have indicated that the state of the country 
and the state of the government's records make it very 
difficult to track anyone to be able to be assured that they 
are even joining the police forces.
    Is that process going a little better in Afghanistan, or do 
we have the same concerns that perhaps we may be training 
people who are, in fact, joining insurgencies?
    Secretary Gates. All I can say is that, in my visits to 
Afghanistan and in my meetings with General Cone and with his 
predecessor, I have not heard this concern expressed.
    I think it is a good question, and I think we could take it 
for the record, in terms of what kind of a vetting process goes 
on.
    Mr. Turner. I would appreciate that.
    Thank you, Mr. Chairman.
    The Chairman. The Chair recognizes the gentleman from 
Pennsylvania, Mr. Murphy.
    Mr. Murphy. Thank you, Mr. Chairman.
    For the record, Admiral Mullen and General Sattler, 
congratulations on the Navy beating Army last weekend in Army-
Navy.
    General, on a more serious note, I am a Blue Dog Democrat. 
We stand for two things: strong national defense and fiscal 
discipline.
    We have given the Pakistanis $5.6 billion in military aid, 
called the Coalition Support Funds, to reimburse the Pakistani 
government for fighting the war on terror. The simple fact is 
that there are major questions as to how this money is being 
spent and whether it is actually protecting American lives.
    For example, Coalition Support Funds were used to purchase 
26 Bell 412 helicopters. These helicopters are allegedly being 
used to fight the war on terror, but my sources tell me that 
President Musharraf is actually using them as a personal fleet 
to chauffeur his political allies across the country. 
Meanwhile, the Taliban and al Qaeda are using the Pakistan and 
Afghanistan border as a haven to launch attacks on our troops.
    Now, we may have to do this in a classified session if need 
be, but the Congress and the American taxpayers have a right to 
know how the Pakistanis have spent our over $5 billion in aid 
and when, if ever, we are going to see a return on our 
investment.
    So, I guess, Mr. Secretary, the question is probably 
directed toward you, if we can get an itemized receipt or 
report on this $5.6 billion and an accounting of whether or not 
you believe that this has made us safer in the war on terror, 
if you would like to respond.
    Secretary Gates. We will do that.
    [The information referred to can be found in the Appendix 
on page 66.]
    Mr. Murphy. Great. Thanks.
    How about the larger question? Do you believe that we are 
now safer because we have invested this money in the Pakistan 
government--and I understand President Musharraf is a declared 
ally--but especially this resource on the $5.6 billion, getting 
a more robust return of our investment especially in this area?
    Secretary Gates. I do not have direct experience between 
2001 and the end of 2006, but based on everything I have heard 
and on everything I have seen, I think it has been a very 
worthwhile investment.
    Mr. Murphy. Admiral.
    Admiral Mullen. I feel the same. Having, certainly, just 
come from a couple of years as a service chief, I was very 
focused on trying to make sure that we were spending every 
dollar responsibly. That is a priority for me as well. Given 
that, this investment, I think, in the government of Pakistan 
and in the people of Pakistan has been a very important one.
    Mr. Murphy. My next question would be: Our focus, 
especially after 9/11, was on Osama bin Laden and on al Qaeda. 
And I know there was talk--and I know my colleague from 
Colorado mentioned it in his questioning. How much closer are 
we to getting Osama bin Laden? I know, once we get him, it is 
not over and that there is a lot more al Qaeda out there, but 
how much closer are we today than we were five years ago?
    Secretary Gates. Since I was not here five years ago, I 
have not got a clue. I think a serious answer to the question 
is really along the lines that Admiral Mullen indicated. We are 
focused very much on it.
    I think if we were to talk about it any further, it would 
probably need to be in a closed session.
    Mr. Murphy. Admiral, do you concur?
    Admiral Mullen. I do.
    Mr. Murphy. Well, thank you, gentlemen. Thank you for your 
continued service to our Nation. Thank you for being honest 
with your answers.
    Mr. Chairman.
    The Chairman. I thank the gentleman.
    The gentleman in the far corner, Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    Mr. Secretary and Admiral, thank you for being here this 
afternoon.
    With respect to counternarcotics and counterinsurgency and 
with the overlap of those issues, when we were there in 
September, there seemed to be some concern that our NATO allies 
did not take the narcotics issue quite as seriously as we did.
    Also, there was some indication that, with respect to going 
after the full spectrum of the narcotics business, it is one 
thing to pick on a sharecropping poppy grower, but it did not 
seem to me like we were going after the landowner who was 
complicit in the trafficking and in the profiting being done 
from the opium and the poppies.
    Given the interagency nature of the approach so far, is 
there a better way to go at this that would put it all under 
one roof? Because they are so interconnected.
    Secretary Gates. I think part of the problem has been, as 
you suggest, that our allies have not taken the narcotics 
problem as seriously, perhaps, as we have. Some have, but not 
all, by any means.
    Second, I think that our effort has been inhibited somewhat 
by a serious difference of view that isolates the United States 
from most of our allies and from the Afghan government, and 
that has been in our desire to press for aerial spraying. 
Virtually no one else wants to do that, including the Afghan 
government. We discussed it when I was there last week.
    I think it is patently obvious that we have not been 
successful in the counternarcotics effort in Afghanistan. They 
now provide about 90 percent of the opium for the rest of the 
world, most of which goes to Europe, by the way. It seems to me 
that part of the problem--I talked in my remarks, in my 
prepared remarks, about a five-pillar strategy, but I think at 
the end of the day what is actually required, in addition to a 
broader effort, is that the day we go in and eradicate 
somebody's crops, we had better be there with alternative 
seeds, some money and a way to get that product to market, or 
we will have just recruited somebody else for the Taliban. I 
think too often there has been a desire to go after the 
eradication without the rest of the package being there right 
then.
    And I think this is something we just have to pay more 
attention to. We have to work harder with the Allies, and we 
may need to devote more resources to it.
    Mr. Conaway. Mr. Secretary, with respect to the folks 
further up the food chain, I agree with you that the 
sharecroppers--and most of them are of the poppies--need 
something else to grow. And their profit levels on other crops 
are not that much different than that of opium, but there seems 
to be some evidence that the landowners and others further up, 
perhaps even in government, require these landowners to grow 
poppies because their margin of profit is much higher than if 
they were growing wheat or some other kind of product.
    I do not necessarily expect an answer from you this 
afternoon but a commitment to perhaps focus within our group 
and to focus with the government, because I suspect that these 
landowners are very powerful individuals who are perhaps tribal 
leaders and others who are involved in an effort that we take 
seriously and that obviously the government ought to take 
seriously, and it certainly gives lip service to that.
    Perhaps there is some sort of effort that can go not just 
into eradicating that one crop--where it may or may not be that 
the guy who owns the land is the same guy who is growing it--
but in eradicating all of the other people in that narco-
trafficking food chain.
    So I appreciate your comments today, and I appreciate your 
being here.
    Secretary Gates. I would just add that I think it is tied 
up with the overall corruption problem that we have talked 
about. And we definitely will take a look at that aspect of it.
    One area where we have been successful--and I really heard 
about it for the first time a few days ago when I was out 
there--is that we have been successful in taking down a number 
of narcotics laboratories, where you get to the gathering point 
with some potential impact.
    [The information referred to can be found in the Appendix 
beginning on page 66.]
    Mr. Conaway. Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Before I call on Mr. Sestak, let me ask this question: Some 
experts have stated that a long-term American commitment in 
Afghanistan is necessary to ensure the stability there, such as 
a 15-year-or-more commitment.
    Do you think that a long-term American military presence is 
a requirement, Secretary Gates?
    Secretary Gates. This is one area where I think, you know, 
it is going to be a period of time, several years, before the 
Afghan National Army is prepared to take full control of the 
process.
    In a way, you are asking me to predict the future, in part 
because of the ability of al Qaeda to reconstitute itself on 
the Pakistani side of the border and whether we need to have a 
presence in terms of being able to do counterterrorism.
    I think that there will probably be a requirement for 
Coalition forces, for NATO to be there for a number of years. 
But I think we can be there as part of a significantly large 
number of countries, not on our own.
    The Chairman. Thank you.
    Mr. Sestak.
    Mr. Sestak. Mr. Secretary, Admiral, thank you for your 
time.
    Admiral, I was struck by what you said: In Iraq, we do what 
we must, and in Afghanistan, we do what we can. You know better 
than anyone else that Afghanistan is where it all began, as you 
were in the Pentagon that day that the Pentagon and the Twin 
Towers were struck, from the Taliban's protecting al Qaeda in 
ungoverned areas. I would think that the better approach might 
be what Winston Churchill said: Sometimes it is not enough to 
do our best; sometimes we have to do what is required.
    So, Mr. Gates, my question as we talk about NATO is that 
the U.S. Combined Security Transition Command in Afghanistan 
has a requirement for so many embedded U.S. trainers for both 
the Army and separately for the police force, but U.S. forces 
are only meeting 44 percent of the required U.S. commitment to 
that for the Army and 34 percent of that for the police. That 
adds up to approximately 3,500 troops that we have not met our 
commitment to in the embedment of trainers and mentors.
    How can we point at NATO if we have not done what is 
required?
    Secretary Gates. Well, I think it is the fact that we have 
half the forces in Afghanistan and that our significant 
enablers in terms of helicopters and various other capabilities 
have had the appropriate influence on the attitudes of our 
allies. The numbers for any other single ally are a small 
fraction of the commitment that we have made in Afghanistan. We 
have over 26,000 troops there and an overall ISAF commitment of 
a little less than 50,000, so we are making a significant 
effort.
    I think part of our--there is no question, as you talk to 
General Cone, that he has--and I will invite the Admiral to 
comment--thinned out, somewhat, our embedded trainers with the 
Afghan National Army in order to try and provide some 
additional support to training the police, a mission that 
originally, as I indicated, had passed to the European Union. 
So----
    Mr. Sestak. Mr. Gates, just because of time, may I follow 
up with a question, another one?
    That is the governed areas where the police are and the 
army. I guess, actually, I am almost more concerned about the 
ungoverned areas. That is where al Qaeda struck us. I 
understand there is al Qaeda in Iraq, but our intelligence 
community tells us they do not plan attacks against the U.S. 
homeland. They do, those al Qaeda who live in either Pakistan 
or Afghanistan.
    So my concern, sir, is, having been on the ground in 
Afghanistan--as you know, Admiral, it was at about this time, a 
little later, right after we struck Afghanistan, having brought 
my battle group back and then going on the ground again 18 
months later and seeing what we needed to be doing and seeing 
now that once again al Qaeda has safe havens in Pakistan. 
General Eikenberry said it well. Where the road ends, the 
Taliban begins in the ungoverned regions. We actually have to 
make sure that we do not have another sanctuary where we sit 
here a year or two from now and say, ``Couldn't we have done 
more, the United States?''
    I am concerned that NATO, the Germans, the Spanish and the 
Italians do not send any troops to the south except for 250 
troops by Germany. Some of our allies will not fly to 
Afghanistan. Some refuse to do combat ops at night. Some do not 
fly when the first snowfall falls.
    My concern, sir, is, if this is our security, why don't we 
just put more troops in there? Or will we look back in the 
rearview mirror two years from now and say, ``Should we have 
done more to meet the requirements?'' It is U.S. security above 
all else.
    Secretary Gates. I would just comment, sir, that, first of 
all, I am not--I don't think that the Taliban constitutes a 
threat to us here at home; and in terms of al Qaeda----
    Mr. Sestak. I meant al Qaeda. The Taliban gives the 
sanctuary to al Qaeda.
    Secretary Gates [continuing]. We run operations to make 
sure al Qaeda has no safe havens in Afghanistan, and I believe 
those operations are successful. We are working with the 
Pakistanis and we are concerned and we are watching in terms of 
what al Qaeda is doing on the Pakistani side of the border.
    But I would submit to you, sir, overall, we would not be 
looking at adding significant numbers of U.S. forces to run 
operations to do conventional military operations on the 
Pakistani side of the border. That is the area we do need to be 
concerned about al Qaeda training and reconstituting itself. It 
is one area, as I have suggested before in the hearing, where 
first we need to see if we can get the Pakistanis to take it on 
and then to work with the Pakistanis to improve their 
capabilities or do things together; and then we need to be able 
to act unilaterally, if we have to, to make sure they don't 
come back at us again.
    Mr. Sestak. Thank you very much.
    The Chairman. Along down the line, either one of you, Mr. 
Secretary or Admiral, what is the optimal number of--level of 
troop strength in Afghanistan? Have you thought about that?
    Admiral Mullen. Again, not wanting to be predictive--it 
is--I don't have a specific number in my head. The current 
concern is clearly for the trainer capacity, which is a 
shortfall. We go a long way if we increase the shortfalls that 
are there right now, the countries in NATO are committed to.
    While I have said this is an economy of force operation, it 
is an operation that has had significant impacts, particularly 
this year against the Taliban. There is progress being made in 
other areas. And this is a country that we are trying to bring 
forward from a developmental level of hundreds of years, and it 
is going to take some time.
    Secretary Gates. Let me just say, so we can keep the 
numbers we are talking about in some perspective here in terms 
of what the ISAF commander has requested in--because the 
numbers are not that big. We are talking about, as the Admiral 
just said, 3,000 to 3,500 trainers, a substantial majority of 
which would be for police. We are talking about approximately 
20 helicopters, 14 lift and 6 attack. We are talking about 
three maneuver battalions.
    So we are not talking about 10, 15, 20,000 additional 
troops going into Afghanistan to meet the requirement that the 
commander has placed on all of NATO. The numbers are not all 
that big which, frankly, is one of the sources of frustration 
for me in terms of our allies not being able to step up to the 
plate and meet these needs.
    The Chairman. I thank the gentleman.
    May I point out that the Secretary has 15 minutes before he 
must leave. I understand that Ambassador Edelman will take the 
spot at the table.
    Mr. Akin.
    Mr. Akin. Thank you, Mr. Chairman.
    I have got just one short little question, and that is what 
happens if we continue to delay the supplemental? Is that going 
to affect operations in Afghanistan?
    Secretary Gates. Well, the supplemental includes--in 
addition to the impact on Army and Marine operations, 
supplemental contains, I think, $2.7 billion for training and 
equipping the Afghan forces. So we wouldn't be able to do that.
    Mr. Akin. When would your supply of money run out so you 
would have to have the supplemental to do that?
    Secretary Gates. I think what we have communicated to the 
President and to the congressional leadership is that the money 
begins--the money runs out for the Army in about mid-February 
and for the Marine Corps in about mid-March.
    Mr. Akin. Thank you.
    The Chairman. Mrs. Tauscher.
    Ms. Tauscher. Thank you, Mr. Chairman.
    Mr. Secretary, Admiral Mullen, I apologize. I had to run 
out and manage something on the floor for the Speaker; and if 
this is a repeat of what somebody else has asked, I apologize 
for that, too.
    I am very impressed, Mr. Secretary, with your work inside 
of NATO to try to move things to a more sense of urgency on 
many different levels, including ballistic missile defense. My 
concern is that--and I sit on the NATO Parliamentary Assembly 
and am the Vice Chair of the American delegation. I am over 
there three or four times a year. They are here a lot. I see a 
huge disconnect between the publics and the parliaments among 
our NATO allies on so many different issues. I see your very 
good under secretary, Mr. Edelman, nodding because we talk 
about this a lot.
    And I really appreciate my colleague Mr. Snyder's comments 
about the soft power issues. The kind of public diplomacy that 
the Congress can be helpful with member to member in different 
parliaments, especially inside of what I believe is the finest 
military and defense alliance in the world, a have to have, 
which is NATO, is very, very important; and what I am 
suggesting is that we work together a lot more closely on 
message.
    I think we need to be engaging at the member-to-member 
level, Member of Congress, Senate and members of parliament 
throughout our NATO allies and in Europe generally on threat 
analysis, on understanding exactly what we are buying and why 
we are buying it and how we are going to knit these systems 
together, how we are going to have interoperability.
    The issues of caveats are specific, as Admiral Mullen 
knows, to the public perception in many of these countries of 
fear of loss, fear of loss of their precious people as they 
have seen us lose far too many ourselves.
    So I think this is really a time for engagement, and I know 
that you are for that, and I would like to hear from you what 
you think we can be doing to be helpful, how we can be more 
organized on message, how we can be much more strategic and, 
frankly, a little more robust in our activities in getting this 
done. Because I think the disconnect is a widening yawn, and it 
directly impacts these countries' abilities to raise money. I 
mean, the cry that we have when we are over there is spend more 
than two percent of your gross domestic product (GDP) on 
defense.
    The numbers are going the wrong way. There is only a few 
countries--France, the United Kingdom (U.K.) and maybe some--
maybe the Netherlands--that are actually spending enough money. 
So if you could help energize us with some ideas, work closely 
with us on this, I think we could get someplace. But I am 
interested in hearing what you think.
    Secretary Gates. I couldn't agree more. Six out of 26 
allies meet the 2 percent GDP for defense threshold or higher. 
I couldn't agree more in terms of the role of the Congress 
being helpful; and, in my introductory comments, I said I would 
also like to stress the role Congress can play in this endeavor 
if other governments are pressured by this body and the Senate 
as well as those of us in the executive branch.
    So I think that--I mean, this is one area where we really 
are in accord, and I think the opportunity--there is a 
disconnect between the governments and the parliaments. And I 
think that the governments get it, and the problem they have is 
a lot of them are minority governments, a lot of them are 
coalition governments, and it is a harder sell because they 
weren't attacked out of Afghanistan like we were.
    But I think this is really a place where not only in terms 
of the importance of Afghanistan but communicating the message 
that, as far as the American people are concerned, it is 
important to the future of the Alliance that our allies help us 
here.
    I couldn't agree more, and I think we ought to figure out 
some mechanism where we can sit down and kind of figure out 
what the right message is so we are giving them a very similar 
set of messages in terms of what is needed.
    Ms. Tauscher. I look forward to that. I mean, I think the 
most obvious argument is that a failed narco state in 
Afghanistan where the poppy crop is increasingly growing hits 
Europe first, the first cut of that cocaine; and that heroin is 
in Europe before it comes, unfortunately, further west to us.
    So I think that there is a message, but I just think we 
have to be much more strategic and dedicated to making that 
message one that we all carry. And I think we need much more 
muscular engagement, and I think we really need to be putting 
it to them in no uncertain terms in a friendly way on how we 
should be doing this.
    Admiral Mullen, do you have any comments that you want to 
make?
    Admiral Mullen. I couldn't agree more as well. I know you 
have, as you indicated, extensive experience there. I have 
shared the same kind of both challenges and goals and 
frustrations, and I think the more we engage the more likely it 
is this very critical Alliance is able to be relevant for the 
future.
    Ms. Tauscher. Mr. Secretary, I look forward to working with 
you and my colleagues to convene together to make sure we have 
this message and that we are being much more promotive and, 
frankly, leaning a little bit more forward on being in front of 
our friends more often and making sure that we are delivering 
this message in an effective way.
    Thank you. I yield back my time.
    The Chairman. I thank the gentlelady.
    Mr. Franks.
    Mr. Franks. Thank you, Mr. Chairman; and thank you, 
Secretary Gates and Admiral Mullen, for being here, for those 
that are in attendance with you and those you represent. I 
always want to let you know how much people like me appreciate 
you because, apart from those in uniform, people like me 
couldn't sit on this platform, and I appreciate it.
    With that said, you know, as we discuss the overall battle 
against Jihadist terrorism in the world, I think it is 
important that we realize this is really in a larger sense one 
war. It is a war between freedom and tyranny. And just as you, 
Mr. Secretary Gates, said that, you know, you put yourself in 
the place of the enemy to be able to ascertain what their 
strategies might be, I am afraid that they are very good at 
putting themselves in our place. They study our ways very 
carefully.
    And one of the great concerns I have, sir, is that some of 
the discussions that we have in this body and at home undermine 
a lot of what takes place overseas. There has been a lot of 
discussion as to whether or not Iraq or Afghanistan, 
juxtaposing the two, are the most important. I can only say 
that, from the rhetoric of the terrorists, they consider both 
of them important but especially Iraq. Because they see that 
this could be a terrorist base with great resources that they 
could use to launch terrorism throughout the world, and the 
rhetorical advantage they would gain if they chased America out 
of Iraq I think would be enormous.
    I know you have heard this before, but the bottom line is, 
if Iraq is not important in the war on terror, then somebody 
needs to explain that to the terrorists, because they don't 
understand.
    And with that said, I hope that, you know, for the sake of 
those here and for the sake of just Americans in general, that 
we don't put not only the battle against terrorism upon the 
back of our soldiers but having to carry this undermining 
rhetoric at home on their backs as well; and I hope that we can 
back you up a little better in the days ahead.
    Perhaps the first point that we might ask you, you 
mentioned that in mid-February that there would be some money 
that would run out. What happens on the ground in mid-February 
if that occurs without this supplemental?
    Admiral Mullen. I think the services, the Army and Marine 
Corps, start to--actually, they already have. Because in 
anticipation inside a service of the lack of funds you start to 
constrict. And in fact, except for the vital necessities on 
bases--health, property and safety, those kinds of things--the 
furloughs that have already been discussed very publicly, up to 
100,000 furloughs which we would anticipate starting, you know, 
in the February time frame, you stop doing your training to 
deploy. You stop rotating to other parts of the world. The 
Commandant of the Marine Corps specifically said his recruiting 
comes to a halt.
    So it is not just some of the things that we have talked 
about. It has a very debilitating effect on those two services. 
The Army's annual operational budget is about $27 billion. They 
are spending $6.5 billion a month right now to run the Army as 
well as to support the efforts with respect to this war. That 
is why they run out in February. They won't have the money they 
need to operate the Army. And that is why passing this--or 
getting the supplemental, the full supplemental, in place as 
rapidly as possible is really important for all of the men and 
women who are serving, as well as their families.
    Mr. Franks. I think that you folks are doing your part; and 
if Congress doesn't do our part in that regard, it is a 
disgrace that beggars my ability to describe here.
    Let me shift gears here. Related to the influence that Iran 
has had over the country of Afghanistan, you know that not long 
ago we put in a policy where if Iranian weapons were found in 
Afghanistan that there would be a report; and it occurs to me 
that just in some of the recent writings that there may be some 
decrease in the Iranian efforts to affect the conflict in 
Afghanistan because of fewer weapons showing up. Is there 
anything to that?
    Admiral Mullen. When I have been asked this question 
lately, I am still in the--it is too soon to tell. There are 
clearly some indications, just by virtue of the level of 
violence, the kinds of weapons that we see actually going off 
at the time. But I still believe that while the recent data is 
indicative, that a longer term trend on this before I would be 
willing to say----
    Mr. Franks. Any Chinese weapons showing up?
    Secretary Gates. Excuse me. Were you referring to 
Afghanistan or Iraq?
    Mr. Franks. Yes, Afghanistan in this particular case. But 
either way, Afghanistan or Iraq, Iranian or Chinese weapons, 
any weapons showing up still?
    Secretary Gates. I am not aware of any Chinese weapons.
    Admiral Mullen. I am not aware of any Chinese. There has 
been concern for the Iranian weapons support in Afghanistan for 
the past several months.
    Mr. Franks. Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    Mr. Secretary, if you would stay through Mrs. Davis's 
questions, it will only put you over by a minute or two.
    Mrs. Davis.
    Mrs. Davis of California. Thank you, Mr. Chairman; and 
thank you both of you for being here and for your service.
    Let us try this one. Is that better? Can you hear me? Okay. 
Great. Thank you. Thank you again for your service.
    And I want to commend you, Secretary Gates, for your 
discussion of soft power. I think actually my counterparts in 
both France and Germany were suggesting we talk about smart 
power, not soft power; and that probably speaks well, also. On 
the Oversight Committee, we have been discussing this a great 
deal as we look at PRTs and we think about interagency 
collaboration. So we are very happy to have you discussing 
those issues, and we certainly want to work with you on them as 
well.
    I had an opportunity to travel with Mr. Abercrombie, and I 
am sorry he wasn't able to join us this afternoon, as we spoke 
to our counterparts in France and Germany, because on his trip 
he realized how important, you know, these ongoing discussions 
are. And I appreciate the fact that my colleagues also have 
worked in these parliamentary sessions.
    In talking about public opinion there with them, we 
realized we obviously have a different investment in 
Afghanistan. But we are doing a fairly miserable job, Secretary 
Gates, as you suggested, in articulating our policy and our 
goals there. And I am wondering on this strategic concept 
meeting that you are talking about, and it seems to me that 
this is probably, you know, two years late perhaps, but again 
it is important that we are doing it. What role do you think 
this discussion of public opinion is going to have?
    I think we have talked about our message, but, you know, it 
is also our actions; and part of my concern on what I was 
hearing certainly from our colleagues over there is that this--
the fact that Afghanistan is a lower priority for us, despite 
the fact that obviously our efforts are considerably greater 
than theirs, is also being communicated. So how are we going to 
deal with this and how will it play a large role in this 
strategic concept meeting, if at all?
    Secretary Gates. I think that strategic communications have 
to be an important part of the strategic concept approach. As I 
indicated earlier, I don't think we do a very good job of 
strategic communications inside Afghanistan in terms of 
communicating to the Afghan people what we are doing and what 
42 nations and 70 organizations and states altogether are doing 
for them.
    But I don't think we do a very good job of communicating in 
Europe as NATO, and I think that this is--I have talked to the 
NATO Secretary General about this. There is a need that really 
needs to be centered in Brussels in terms of communicating to 
the media in Europe and through the media to the citizens about 
why this mission in Afghanistan is important.
    I will say that in the four meetings plus that I have had 
with my defense minister counterparts since I took this job, 
defense minister counterparts in NATO, the issue of whether or 
not Afghanistan is a priority for the United States has 
actually never come up. I think that they, at least from the 
defense side, they see it as us taking it very seriously and 
particularly in light of the resources that we have----
    Mrs. Davis of California. As the Secretary would say, in 
terms of the public opinion in those countries, that was 
brought up repeatedly to us.
    Secretary Gates. Well, I think one of the things that I am 
encouraged about in terms of strategic communications and sort 
of the integration, if you will, the application of smart 
power, one of the things that is going to be different about 
this meeting in Scotland is that each of us is bringing a 
senior diplomat with us. This will be the first time that the 
defense ministers of RC-South have been accompanied by the 
diplomatic folks who can help us have a more integrated 
strategy.
    Mrs. Davis of California. Thank you. I appreciate that.
    And on that counternarcotics issue, again we talked a great 
deal about this, the fact that we have, I believe, 24 PRTs 
operating through all the NATO countries. Of course, we have 
the bulk of those, but none of those are really focused on 
counternarcotics operations. How do we explain that and are we 
moving to do more of that? And, if not, what is the problem?
    Secretary Gates. No. As I indicated earlier, I am really 
concerned about counternarcotics because I think that we don't 
really have a strategy, and I think we have not engaged our 
allies. I think we have not persuaded them it is important and 
needs the application of resources. That has clearly got to be 
an area because it ties into corruption, it ties into 
governance and the whole string.
    Mrs. Davis of California. Admiral Mullen, any other 
comments quickly just in terms of the way that we are 
communicating with our allies? And it looks like my time is up.
    Admiral Mullen. I think what the Secretary has laid out 
with respect to communicating strategically, penetrating very 
deeply into the peoples of all those countries, also within 
NATO is absolutely critical.
    Mrs. Davis of California. Thank you.
    The Chairman. I thank the gentlelady.
    Mr. Secretary, we thank you very much, very.
    Admiral do you----
    Admiral Mullen. I am going with him, with your permission, 
sir.
    Secretary Gates. We will have our more able seconds.
    The Chairman. We can really ask some tough questions.
    Mr. Secretary, Admiral, we really appreciate you being with 
us, your expertise and your hard work; and we will look forward 
to seeing you again soon. Thank you so much.
    Will our new witnesses please approach the table? 
Ambassador Edelman and--I know exactly who he is. We raised 
General Sattler from a pup here in this building. Am I correct, 
General?
    General Sattler. That is correct, sir; and I hope you 
remember that when I start having questions come from that side 
of the table, sir.
    The Chairman. Thank you.
    Mr. Ambassador, General, we appreciate--will somebody take 
those two signs down, please? Put the real signs up. Again, we 
thank you for completing the hearing for us.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Really just a couple of quick questions first for 
Ambassador Edelman, and this is to put a finer point on 
Representative Tauscher's question about talking to NATO 
countries. I was wondering if you have identified, you know, 
specific countries and what specifically you think each of 
those offer additionally as you move forward into tomorrow's 
meeting in Scotland?
    Not that I would ask you to share that specifically with us 
here today, but if a member had an opportunity in the next 
couple of days to speak with representatives from any of these 
countries, which some of us may have, do you think you could 
share that with us that we can be even more specific as we have 
that conversation?
    Ambassador Edelman. Mr. Larsen, first of all, I would say 
that the RC-South countries themselves are, as the Secretary 
indicated, some of the actually serious contributors. And our 
Canadian colleagues in particular but also our U.K. colleagues 
have been engaged in pretty significant operations and have 
taken a lot of casualties. So I think our effort is to, in the 
first instance, get help for them from other NATO members.
    One country where I think we have an ongoing discussion is 
with France. Because when President Sarkozy was here, as you 
may recall when he spoke to the Congress on November 7th, he 
indicated that France would be in Afghanistan for the duration; 
and we are now discussing with them what form and shape that 
might take. Our French colleagues were extremely helpful in 
providing an additional OMLT for Oruzgan province to help 
enable our Dutch colleagues to get through their parliamentary 
session.
    I would add on the messaging. First, I, like Secretary 
Gates and the chairman, I agree completely with what Mrs. 
Tauscher said. She pointed to one important message which is 
the counternarcotics message and quite correctly. But I think 
there is a broader message as well that is not well appreciated 
in Europe that I think members when they are traveling can 
share with their counterparts. Which is to say as I travel 
through Europe I frequently hear people say this is American 
problem because you were attacked on 9/11 or maybe it is a U.K. 
problem because they were attacked in July of 2005 and because 
of the Heathrow plots in the summer of 2006.
    But if you look at the development of al Qaeda over the 
last year or two, with the adhesion of the Algerian and now 
Libyan Salafist movements swearing to bin Laden, the arrests 
that were made in Germany of the Islamic Jihad Union (IJU) 
operatives who were plotting terrorist operations in Germany, I 
think it is increasingly clear that this is really a threat 
that is on Europe's littoral. It is in the heart of Europe. And 
it is a common threat to all of us and it is what our Alliance 
is all about, of course, common shared risks and the 
indivisibility of security for all of us. So I think it is 
important to make those augments.
    Mr. Larsen. There are two countries in particular 
personally where I am going to have an occasion to talk to 
folks. If I could have my staff follow up with somebody on your 
staff sooner rather than later to identify.
    And another thing that--obviously, there are some countries 
in Europe that are not part of the EU, that see the NATO 
Alliance as their primary military relationship with the United 
States and want to strength that. So that may be another area--
another tack to take, if you will.
    And the second thing, in our staff memo there is a very 
short conversation about China and what China might be doing or 
could be doing. It is really more focused on the economics, 
about this investment in copper mining and railways and so on.
    When I was in China this year earlier just in August, there 
was a conversation we had with some folks in Xinjiang province 
in the far west that this is the first year in China where they 
are going to interdict more southwest Asian heroin than 
southeast Asian heroin--that is, Afghan heroin versus Burmese 
heroin, mostly coming up through Pakistan and into Xinjiang. 
And it seems to me that there could be a marriage of interest 
there. China as well as every other country doesn't want a drug 
problem. Second, that drug problem largely starts in 
Afghanistan where we have a counternarcotics effort.
    So there might be a relationship there to address with the 
Chinese if they can figure out who is in charge, if it is 
public security bureau, if it is border folks, if it is 
People's Liberation Army (PLA). And if we can kind of lift that 
veil a little bit, too; and our Drug Enforcement Administration 
(DEA) folks are trying to do that in China. So there is a 
relationship there, and I hope you would be willing to explore 
that with our DEA folks who are very attuned with this, with 
this problem in Xinjiang.
    Ambassador Edelman. We will be happy to follow up on that.
    [The information referred to can be found in the Appendix 
beginning on page 65.]
    Ambassador Edelman. I agree there is an opportunity to 
discuss this with the Chinese. I just last week had my Chinese 
counterpart here for the defense cooperation talks, 
consultative talks; and we have some other opportunities down 
the road to continue with those and certainly raise these kinds 
of issues. We did discuss regional issues and the stability in 
Afghanistan in those discussions, but we could certainly pursue 
it further.
    We are in pretty good contact with DEA. I was in quite 
regular contact with Karen Tandy when she was the director and 
with Mike Brown, the director of operations for DEA. So we do 
work closely with them.
    Mr. Larsen. Just a suggestion, one more angle to try to 
help the Chinese see their interest in this as well.
    The Chairman. I thank the gentleman.
    Mr. Ellsworth.
    Mr. Ellsworth. Thank you, Mr. Chairman. Thank you, 
gentlemen, for being here.
    Not that I don't appreciate you being here, I did want to 
ask Secretary Gates a question, but I will go ahead and ask you 
anyway. Because it is a quote from him that I want you to 
follow up on or at least give your opinion.
    In your careers and in regards to some of the comments that 
were made here earlier, in regards to your long and 
distinguished careers to our government, it has been inferred 
that Congress's debate and talk about this war is somehow 
undermining our abilities--and I can remember at least on two 
occasions in this room Secretary Gates made the comment that he 
felt this debate was healthy, and in your study of history and 
the time when our country is at war and previous to our service 
before, wouldn't it be fair to say that Congress has always 
debated in times of war and even before that? Would you both 
agree?
    Ambassador Edelman. Congressman Ellsworth, when Secretary 
Gates said I would have to pinch hit for him here, I told him I 
was a little worried that people would not appreciate having 
the second string come in. He said, oh, no, don't worry about 
it. I said, in that case, I hope I have as good a day as Todd 
Collins did last Sunday for the Redskins.
    As a lapsed historian before I became a Foreign Service 
Officer, much less a senior defense official, debate has always 
been a factor whenever our country has been at war. You know, 
as long as I think the debate is constructive and focused on 
advancing the country's interest, it is healthy; and I think 
that is what Secretary Gates has said consistently.
    General Sattler. I would certainly agree. Anytime we take a 
look at courses of action, we form operational planning teams 
and we look at the pros and the cons and we debate inside the 
military. So I believe that our culture would agree with that 
totally, that discussion and debate is healthy. Yes, sir.
    Mr. Ellsworth. And just to paraphrase him one more time, he 
said that he felt the troops understood over there. And I 
visited the troops on a couple of occasions. I think they 
understand, too, that the debate is healthy.
    I have also never voted against funding for our troops, so 
I feel qualified to say that--and I won't vote to cut off 
funding for our troops. But in a hearing a couple of weeks ago, 
we heard what I believe was 29 investigations--I think it was 
the chairman's question, 29 investigations going on that 
totaled somewhere in the area of $88 billion that was missing 
in these 29 investigations; and I would say that goes a long 
way toward funding our troops if we could reel those back in.
    I really don't expect you to comment on that. I just wanted 
to get that out there. We talk about that we do need money for 
our troops and we won't not fund our troops, but there is 
things we can do better on the checks and balances of where 
that money is going.
    My question is that I have people every day when I go home 
ask me--and I represent about 650,000 people, as most Members 
of Congress do. Some march out in front of my office with 
``bring them home now'' signs and some say ``stay the course'', 
whatever the saying of the day is. So I think it is fair to 
talk about this.
    People come in my office, and they want money for things 
domestically, and they question why we send so much money. And 
so my question is about provincial reconstruction teams. And I 
appreciate that. I think they are doing a great job.
    My question is, the people that we are trying to win the 
hearts and minds of, their appreciation. And I think they do, 
but I would like your comment on--and if you don't know, I 
would like you to get back--that after we build the bridges and 
we build the generators and we supply water and the pump 
houses--and I keep hearing these stories about electrical poles 
being cut down and generator stations being blown up and the 
roadways being cut--is there a percentage or a figure or a feel 
or can we get the information on after we spend this money 
building, how much stays and they keep up, that they maintain 
and that stays there, or is it all for naught? I shouldn't say 
``all'', because I know that is not the case.
    Is there any way to answer that in today's hearing?
    Ambassador Edelman. Well, Congressman Ellsworth, let me 
take a stab at it.
    I think if you look at the range of poll data, there is a 
lot of it. There is a recent ABC poll. There is an Asian 
Society poll. I think that the data is actually fairly 
consistent, which is that Afghans are quite supportive of the 
international community's presence, including the U.S. presence 
in Afghanistan, because they do see the results.
    And I think it is actually quite telling that when Taliban 
come into an area, the first things they tend to do is attack 
the results of the kinds of things that folks and PRTs are 
doing, that is, schools, health clinics, sending night letters 
to the family saying don't educate your daughters. They are 
going after the various things that the international community 
is doing largely through PRT but through other mechanisms as 
well.
    So my impression--and I was in Afghanistan last month and 
was down in Nangarhar province in March where we have a 
tremendous effort ongoing with the PRT down there--is that 
Afghans do appreciate this and do try and build on it.
    But it is, as was mentioned earlier in the hearing, a 
desperately poor society. We need to bear in mind this is, I 
think, the fifth poorest country in the world. It is a country 
that has half the per capita GDP of Haiti. So it is, you know, 
starting from a very low base.
    Mr. Ellsworth. Thank you. Unless you want to----
    General Sattler. I would just add, all the Taliban--all 
they bring to the equation is intimidation, murder and 
thuggery. When the PRTs come in and establish essential 
services, which is the key element of a common surgency, is to 
provide those essential services for the population, that they 
have no counter, they can bring nothing. Therefore, they must 
retake away.
    But we will take the question for the record, sir, and come 
up with a percentage of what we do construct sustains for the 
long haul and what does fall to the intimidation and murder 
campaign of the Taliban, sir.
    Mr. Ellsworth. Thank you both very much.
    Mr. Chairman, I yield back.
    The Chairman. I thank the gentleman.
    Mr. Taylor.
    Mr. Taylor. Thank you, General, for all you do and, 
Ambassador, for being here.
    Ambassador, if you came down Independence on the way here, 
you would have seen that there were some folks who were very 
much for the effort in Iraq out staging a protest, as is their 
constitutional right. And I appreciate them, and I want to see 
our country prevail.
    One of the signs said ``total victory''. And I am just 
curious, if our Nation had to define total victory, either Iraq 
or Afghanistan, if it sent you here to talk about Afghanistan, 
I am curious, does our State Department have a mark on the wall 
that defines that?
    Ambassador Edelman. Mr. Taylor, I think what Secretary 
Gates has talked about in both the context of Iraq and 
Afghanistan is defining success, and success being countries 
that can stand on their own feet, that can provide for their 
own security, albeit with our assistance for some period of 
time, and that are working together with us in the broader 
effort against violent extremism in the Islamic world. And I 
think both of those are within our reach in both places, but it 
is going to take, I think, time and sustained effort.
    Mr. Taylor. Mr. Ambassador, how would you define some 
degree of time.
    Ambassador Edelman. Well, I think it is difficult to be too 
precise about it. I think the chairman asked at one point 
earlier in the hearing about 10 or 15 years. We do have with 
Afghanistan a document outlining a strategic partnership. We 
have had a couple of meetings of the Strategic Partnership 
Council (SPC); and I think that the international community is 
going to be involved in Afghanistan for a very, very long 
period of time.
    I think in Iraq it is probably going to be shorter in part 
because of the differences in terms of resources, levels of 
education and the fundamental ability of the two societies to, 
in the medium term, function on their own.
    General Sattler. Sir, I think it goes beyond the scope of, 
obviously, just Iraq and Afghanistan. If you look at the global 
war on terror with a long war, that the place to win this is in 
phase zero, you know, the shaping phase up on the front before 
we get to conflict later on.
    So if we expand what Ambassador Edelman just addressed and 
took it out to our global partnership capacity to all the 
instruments of national power, especially those soft elements 
of power to get out and into the environment globally and not 
accept that environment but in the long haul work to change 
that environment on the front side, change the environment and 
shape it over the course. And it will take a substantial amount 
of time, but it will take not only the coalition within our 
government, i.e., all the instruments of national power, but 
our global partnership capacity as we build friendships around 
the world, sir.
    Mr. Taylor. General, you know you are my friend, but that 
was about as far from defining a timeline as you could possibly 
get.
    General Sattler. I just wasn't sure if your timeline was 
how long we will be in Iraq or Afghanistan or how long will we 
be in this----
    Mr. Taylor. Actually, it was the Ambassador that said some 
degree of time. And for the sake of the American people who are 
reaching into their pockets to pay for this, we are sending 
their sons and daughters and loved ones, I would just like to 
give them some idea if anyone in the Bush Administration has an 
idea of how long this is going to take.
    Mr. Ambassador, something that continues to trouble me 
about Afghanistan, and I would like to hear your take on this. 
About the only thing that the Taliban did right was the virtual 
elimination of the heroin trade and poppies. Some people 
surmise that one of the reasons that some of the warlords 
fought with us was so that they could go back into the heroin 
trade; and, by the Secretary's admission earlier, it 
skyrocketed. I have even had friends who were working in 
Afghanistan tell me that it is common knowledge that President 
Karzai's brother is one of the major traffickers in 
Afghanistan.
    How do we as a Nation--how do we tolerate that? Do you just 
look the other way and say, well, we are going to focus on the 
good stuff?
    Because, quite frankly, you know, I heard a former Speaker 
of the House--he recently resigned--say something to the 
effect, well, that heroin goes to Europe. Well, I consider the 
Europeans our friends, and I would just as soon not see our 
friends poisoned either. So at what point do we as a Nation 
condition either our help there or, at the very least, say 
clean up this mess, starting with your family, Mr. Karzai?
    Ambassador Edelman. Congressman Taylor, this is a very 
difficult issue and in part because the question of narcotics, 
first of all, goes well, well beyond just what we in the 
Department of Defense and what the military can do. It is a 
broader issue because it involves economic, social, political 
and information elements, not just on the military side. We, I 
think, have to make sure that our allies, because they are the 
ones who are in the first recipients of this stuff, do have, I 
think, have had the lead formally in this and have some 
responsibilities here.
    I don't think that means we stick them with the problem, by 
any means. I think we have to work at it in part because it is 
now--whatever the Taliban's previous attitude toward narcotics, 
and I think it was--even in the heyday of their rule, it was 
somewhat ambivalent, it is now clearly helping to finance the 
insurgency that we see in RC-East and RC-South. So it is a 
problem that we have to get a handle on. And as you, I think, 
have quite eloquently said, because of its reach into Afghan 
society, it is potentially a corrosive factor that is going to 
undermine the effort to have Afghans govern themselves.
    That being said, we are talking about a very--you know, 
very poor society and the lure of easy money, which we find in 
the narcotics trade, is always there.
    A richer society that I know something about, Turkey, where 
I was ambassador for a couple of years, took a very long time 
and a lot of money to eliminate this problem. It is not going 
to be a problem that is going to get eliminated very quickly. 
It is going to require leadership from President Karzai. It is 
going to require leadership at the provincial level. Although 
we have seen the overall level of the poppy crop increase in 
the last couple of years, including this year, which I think 
will be a record crop, we also have seen a number of provinces 
become poppy free, and that has been a function of leadership 
at the level of the governors. And governor-led efforts seem to 
be the ones that have been most successful.
    We have a new coordinator inside the presidential palace 
for local governance who is working to get more capable 
governors in place, and that is going to be a big part of 
dealing with this problem.
    Another part is going to be making sure we have, as 
Secretary Gates said, the alternative livelihood crop programs 
in place. It is going to mean having a system of justice 
functioning. You have to be able to have the counternarcotics 
police who we are helping to train in DOD functioning. It means 
you are going to have to have a system with courts, with 
prosecutors who will not be suborned and who will prosecute 
people and a system of incarceration that will actually hold 
them once they have been convicted.
    We are working very closely with DEA on the interdiction 
effort to go after not just the person at the bottom end of the 
food chain, the cultivator, as one of your colleagues was 
pointing out earlier, but after the people who are really 
making the big money in this narcotics trade. I think of 34 DEA 
operations that we provided support and assistance for in 27 of 
those 34 operations.
    So we are going to have to move as a government on all of 
those fronts to get a handle on this problem. I agree with you. 
It is a very important problem.
    Mr. Taylor. At what point do we start with the president's 
brother? I am talking about the President of Afghanistan. I 
want to make that very clear. Not our president.
    Ambassador Edelman. A number of our senior leaders have 
talked with President Karzai very directly about the threat of 
corruption and about the threat that this problem presents. I 
have had that conversation with him both in November and in 
March, and I think he understands that. It is going to take 
continued efforts to engage with him, I think, to push him to 
do more. It is a problem that is--as I said, a difficult 
problem to get a handle on, and it is not something that any 
one person can do.
    But the broader question of the danger of a culture of 
impunity gaining currency in Afghanistan is a real danger, and 
there has been no shortage of folks that have told that 
directly to President Karzai.
    Mr. Taylor. Thank you.
    The Chairman. I thank the gentleman.
    Before I call on Mr. Loebsack, it is rather interesting 
that this country, which is so good at public relations in so 
many areas, so many areas, is losing the information battle to 
the Taliban that communicates by Internet, cell phone and Al 
Jazeera. Is there an effort on our part to win the information 
war?
    Ambassador Edelman. Well, Mr. Chairman, I think all of us 
share the frustration that you just expressed, and I think 
Secretary Gates has spoken to it pretty directly, I believe, in 
his Landon lecture at Kansas State. He addressed this quite 
specifically and in terms not too different from the ones you 
just used, which is to say that the country that invented 
public relations seems to have a lot of difficulty in this 
area. The lead, of course, is with, you know, throughout our 
government is with the Department of State and with the under 
secretary of----
    The Chairman. You should have a father-son talk with those 
folks.
    Ambassador Edelman. We do provide support to the Department 
of Defense in those efforts. We are clearly the supporting the 
element, not the lead element on that. But in both----
    The Chairman. Do me a favor. Do us a favor. Get back to us 
on the future plans to increase our positive information 
warfare vis-a-vis the Taliban. Would you do that for us?
    Ambassador Edelman. I would be happy to.
    [The information referred to can be found in the Appendix 
on page 65.]
    The Chairman. Mr. Loebsack.
    Mr. Loebsack. Thank you, Mr. Chair.
    I am sorry that I have been bouncing back and forth between 
two hearings, So I missed out on quite a bit. I hope I am not 
being too repetitive in what I ask.
    But I have one question to begin with. Are we essentially 
engaged in nation building in Afghanistan?
    Ambassador Edelman. Sir, I would say we are right now 
involved in a multinational effort at state building. Because I 
think we really in Afghanistan are talking about getting the 
fundamental institutions of a functioning state, as Secretary 
Gates said earlier, and perhaps you were out.
    In Iraq, our problem has been we are dealing with a system 
that had been very centralized before the military operations. 
In Afghanistan, we are dealing with one where the writ of the 
central government has never run very far.
    So it is--in many ways, we are--it goes back to Mr. 
Taylor's question about counternarcotics. I mean, we are trying 
to create really from the ground up a kind of justice system 
with prosecutors, with judges, with court, with a penal system 
that can function in an environment where there is a lot of 
drug money around and you are talking about building 
institutions from the ground up.
    Mr. Loebsack. Whereas nation building I guess implies 
something far more than state building. State building is just 
the institutions, the structures, sort of laying the groundwork 
in hopes that politically either President Karzai or some 
others might be able to somehow reconcile the differences among 
the different ethnic groups and all the rest?
    Ambassador Edelman. It won't be just President Karzai. It 
will be the members of the loya jirga, who have now begun to 
function in a sense as a legitimate parliamentary opposition in 
a country that has never really had that in an institutional 
sense before. It is going to take a certain amount of time and 
adaptation and change in the way people do business.
    Mr. Loebsack. Has anyone in our government, either in the 
Defense Department or the State Department or wherever, 
actually sat down and thought about sort of how many years of 
commitment are we talking about before we can reach whatever 
endpoint, whatever we would call a successful outcome in 
Afghanistan.
    Ambassador Edelman. Mr. Taylor raised that issue, and I 
said I think it is very hard to put a specific number on it. I 
think you would have been hard-pressed to put a number in 1945 
how many years we would be in Europe. We are still there now. 
Or, in 1953, how many years we would be in Korea. I think it is 
intrinsically a difficult question to look forward and say I 
know when the endpoint is going to be.
    Mr. Loebsack. Yeah, I guess I am one of those, too.
    I agree with Congressman Adam Smith. I did hear what he had 
to say earlier about sort of where our emphasis maybe should 
be, and this is where we will probably disagree, obviously. I 
thought for quite some time that we need to disengage from 
Iraq.
    And someone here in the audience--I don't mean to call 
attention to her--but she has a shirt on that says, ``Where is 
Osama?'' Well, Osama we think is somewhere in eastern Pakistan, 
right, or western Pakistan or eastern Afghanistan.
    And I guess my own view, for what it is worth, is, you 
know, I had some difficulty with the statement that was made 
earlier, too, about in Afghanistan, we do what we can, and in 
Iraq, we do what we must. If we did in fact decide that we are 
going to have a change in the mission in Iraq, we could in fact 
do more in Afghanistan. We would be capable of doing more.
    I just--you know, as a new Member of this Congress, and 
someone that actually taught international politics and 
comparative government and all the rest, I am getting to see 
sort of in real life what nation building or state building is 
all about when I listen to what you folks, you know, talk 
about. And, boy, the challenges are even more overwhelming in 
some ways, and my heart goes out to all of the folks that are 
trying to do this.
    I have been to Iraq twice, right, and I am just overwhelmed 
at the challenges when I go there. And I haven't been to 
Afghanistan yet. I want to go.
    And the PRTs, for example, to sort of what it takes to 
have--for those to work. And I guess, along with respect to the 
PRTs, could you clarify a little bit better than what I have 
been able to get from folks up to this point the role of the 
Defense Department, the military, versus the role of the State 
Department when it comes to economic reconstruction?
    Because--correct me if I am wrong, but what I think I have 
heard so far is--not today necessarily--that the military has 
got quite a much larger role in economic reconstruction than 
anybody anticipated even 5 or 10 years ago. Is that fair to say 
or not? How do we see this going forward?
    Ambassador Edelman. Well, first, I think in the initial 
phase in Afghanistan when the PRTs were first being set up, I 
think it was initially there was a larger military role, and 
over time I think we have gotten more participation by other 
elements of the interagency that have this.
    I don't think this is unique in war, by the way. I happen 
to have been reading--and the chairman as a military historian 
may appreciate this, I was reading a recent book on the Italian 
campaign during World War II, which also happens to be the 
subject of--the diplomacy of which happens to be the subject of 
my doctoral dissertation. And one of the things I discovered 
was when Mark Clark--after the landing at Salerno, when U.S. 
troops moved into Naples, there was no plan for how we were 
going to run Naples and who was going to provide the services 
and who was going to pick up the trash. And there was General 
Mark Clark running around, organizing folks to take out the 
trash. So our military has, you know, learned to improvise this 
kind of thing in the past.
    But ideally, as Secretary Gates has said, while there is a 
role for the Commander's Emergency Response Program (CERP) and 
a role for us to play in PRTs, it ought to be the people who 
have the actual expertise who can provide the kind of work. And 
the economic assistance and development work is probably work 
for the Department of State and for the Agency for 
International Development.
    And, frankly, I think we need to, as Secretary Gates has 
suggested, develop some expeditionary capabilities from other 
government cabinet agencies and independent agencies as well.
    Mr. Loebsack. Thank you very much, and thank you for 
letting me go over my time, Mr. Chair.
    Mr. Taylor [presiding]. The chair thanks the gentleman.
    The chair now recognizes the gentlewoman from New York, 
Mrs. Gillibrand.
    Mrs. Gillibrand. Thank you, Mr. Chairman.
    I am concerned about the information we received related to 
this testimony today about the shortfalls that we expect to 
have, that border security force maneuver battalion, maneuver 
battalions for regional command, airborne intelligence 
surveillance and reconnaissance and provisional reconstruction 
teams. We have 25,000 troops there now, and what do you expect 
would be the number that you would want there if you had access 
to the troops you need?
    Ambassador Edelman. Mrs. Gillibrand, I have to say, you 
know, I am not sure what the--whether there is, as the chairman 
asked earlier today about that, an optimal number. I think 
actually the numbers matter less than the mission and what the 
people are doing. And you can see that in RC-East if you go 
visit there.
    You see the kind of counterinsurgency effort that was 
initially launched under the 10th Mountain Division when they 
were there and now being carried forward by the 82nd. We need 
to be doing that in the other regional commands and getting our 
other NATO allies to begin doing that.
    I don't think it is actually so much a matter of the 
military side. I mean, in counterinsurgency, the rule of thumb 
is 80 percent of your effort ought to be in the nonkinetic, 
nonmilitary side. So I don't know that the 20 percent is what 
needs to be increased in Afghanistan. It is the lack of the 80 
percent being fully resourced and funded that is the problem, 
in my estimation.
    I yield to General Sattler.
    Mrs. Gillibrand. General Sattler, would it be valuable to 
you to have an addition of 20,000 more troops?
    General Sattler. I think, as the Secretary alluded to, the 
shortfall requirement that is on the table right now from the 
ISAF commander going back through NATO is 3 infantry 
battalions; and then there is also the trainers, which is 
approximately between 3,000 and 3,500. Those would be the 
Afghan national army forces and also for the police.
    I would also like to point out at this point, as we grow 
the additional police and the Afghan soldiers, that requirement 
will come up on the table. Today, as we sit here today, every 
Afghan national and army unit does in fact have either an OMLT, 
the Operational Mentoring Liaison Team, or what we call 
embedded training teams. So every battalion that is out there 
right now is in fact covered. But as we start to grow more, 
this will become a critical shortage that every one is 
concerned about, yes, madam.
    Mrs. Gillibrand. Thank you.
    Ambassador or General, do you know what the Administration 
is currently doing to engage NATO to make a greater commitment?
    Ambassador Edelman. I think Secretary Gates, since he went 
and spoke with his NATO counterparts in winter of last year, I 
think it was around February or so, has been pushing 
consistently for our NATO colleagues to step up and meet the 
requirements of the joint statement of requirements that the 
Supreme Allied Commander (SAC) here has set forward and which 
the heads of government essentially agreed to at the Riga 
summit in November of 2006----
    Mrs. Gillibrand. We are just asking at this point for 
additional help.
    Ambassador Edelman. I mean, the Alliance is a political and 
military alliance of 26 nations run by consensus. So, unlike 
the Warsaw pact, we can't order our allies to do things.
    Mrs. Gillibrand. The plan is to keep asking and hope they 
will agree.
    Ambassador Edelman. We have to keep engaging them and 
making the case that this is crucial to their security, which I 
believe it is.
    We have a few more opportunities to do that. The Secretary 
will be in Edinburgh with the RC-South countries later this 
week. But we also have a defense ministerial in February before 
Verkunde, and there will be a foreign ministerial after that 
and then, of course, the NATO summit.
    Mrs. Gillibrand. And one other concern I have is that so 
much of our progress is often stymied by the level of 
corruption, official corruption, other fraud. We don't have an 
Inspector General (IG) in Afghanistan. What recommendations 
have you made to the Administration to address corruption?
    Ambassador Edelman. Well, our Inspector General at DOD has 
actually been out in Afghanistan and spent quite some time out 
there.
    Mrs. Gillibrand. The Inspector General for Iraq.
    Ambassador Edelman. No. This is the DOD Inspector General.
    Mrs. Gillibrand. Would you recommend expanding the mission 
of the Inspector General of Iraq to include Afghanistan so we 
could have better accountability about the fraud and corruption 
that is consistent with all of the funding--that billions and 
billions of dollars of funding that we are unable to identify?
    Ambassador Edelman. In Afghanistan?
    Mrs. Gillibrand. Uh-huh.
    Ambassador Edelman. I am not aware of the problem in 
Afghanistan being anything like that. I mean, I am aware of the 
issues in Iraq that we have had with contracting and both the 
reports of the Special Inspector General for Iraq 
Reconstruction (SIGIR), but also the DOD IG has been deeply 
involved both in Afghanistan and Iraq. My own view is that 
right now that has been sufficient for what we need to do.
    Mrs. Gillibrand. And then, last, can I just address the 
drug issue that the chairman raised? In the briefing that we 
received, it said that 10 percent of the Afghan population is 
currently involved in the drug trade. If you are talking about 
33 million people, that is over 3 million people. I am highly 
concerned that our mission right now is limited when it comes 
to drug eradication, and I am also highly concerned that many 
of the funds from the drug trade is going straight into 
terrorism against our troops and against our country and 
against our allies. What is your intention with regard to 
whether we would expand our mission toward narcotics and help 
the U.K. in some of the work they are doing? And if we do 
expand that mission, there has obviously been complaints about 
using aerial maneuvers to eradicate crops because it has a 
health impact on the population. Could you please discuss those 
issues?
    Ambassador Edelman. I think more broadly on the 
counternarcotics issues, I tried to respond to Mr. Taylor's 
comments and questions. The aerial spraying issue is a specific 
one. I mean, this is ultimately their country, and it is 
something that President Karzai and the government leadership 
has opposed. We have argued that it is an efficient and 
effective way to eradicate. But the sort of health concerns you 
raise which are against the backdrop of what Afghans 
experienced in the war against the Soviets in the 1980's, a 
particularly sensitive point for Afghan, it is not something we 
can impose on them.
    It is also opposed, by the way, by most of our allies, 
including the U.K., which has the lead, as you point out, for 
narcotics.
    I agree with you that we have to deal with this problem 
because of the role that narcotics money is playing in funding 
the insurgency. We have already taken some steps to, as I 
indicated earlier, work more closely with DEA and the 
interdiction approach to--in that sense to fold in 
counternarcotics efforts to our counterinsurgency efforts. I 
think we intend to continue to do that.
    We will also be operating on all the other kind of lines of 
operation that have been outlined by the counternarcotics folks 
at the State Department.
    Mrs. Gillibrand. Do you think we will be using crop 
replacement as a tool? From our briefing, it says that 98 
percent of those that were questioned said they would willingly 
grow something else if they could receive money for and provide 
for their family. Is that something that we plan to----
    Ambassador Edelman. I mentioned earlier alternative 
livelihoods. That has got to be a part of the picture. But 
those are not DOD responsibilities. Those are programs that our 
colleagues at AID largely are responsible for and some in the 
international community.
    General Sattler. Mr. Chairman, if I might add, one of the 
five pillars is also information/education. So, when we do come 
up with the alternate livelihood, we educate and inform the 
people of Afghanistan what is about to happen, why it is about 
to happen, and what their recourse is for that livelihood. Yes, 
ma'am.
    Mrs. Gillibrand. Thank you.
    Thank you, Mr. Chairman.
    Mr. Taylor [presiding]. The chair thanks the gentlewoman 
from New York.
    General Sattler, I will speak of my failure in that, while 
as a Member of this body, along with others, I really pressed 
the Department of Defense to uparmor Humvees, and it really was 
not until about January of 2005 that someone, a retired Army 
colonel, pointed out to me that the majority of the blasts were 
coming from underneath the Humvees, and that we needed to 
address that. I use that as an example of I wish I had known 
something sooner so that I could have fixed it in a more timely 
manner. My hunch is, given the success of underbody explosions 
in Iraq, and the Internet and the satellite television, that 
the forces in Afghanistan are aware of that vulnerability.
    Do you see any evidence of the underbody threats migrating 
to Afghanistan? If that is the case, does the President's 
budget request adequately address this in requesting Mine 
Resistant Ambush Protected vehicles (MRAPs)? Is there another 
threat that I am not yet aware of and that I need to be aware 
of that we need to start addressing in next year's defense 
authorization bill?
    General Sattler. Mr. Taylor, it is my understanding that 
the total buy for the MRAP includes the requirements for both 
the Army and the Marine Corps and any other forces that need 
mobility in both Afghanistan and in Iraq so that that 
requirement is, in fact, in the current buy and in the outyear 
buy. So, as to the sustained line to purchase the MRAP, the 
different variants of it are, in fact, on the table, but I 
would ask the Ambassador just to make sure, sir, since we both 
work this.
    Mr. Taylor. Well, if I may, General, I understand.
    Is there any evidence of the underbody threat, being a land 
mine from the bottom, an IED's being detonated below the 
vehicle--I do not think it is any secret that the preponderance 
of American casualties has been suffered as a result of that. 
Is there any evidence of that form of attack's migrating from 
Iraq and being used by the insurgency in Afghanistan?
    General Sattler. The underbody attack has been used in 
Afghanistan. That is a valid statement, sir. So that tactic, 
technique and procedure has already been used in Afghanistan. 
That is correct, sir.
    Mr. Taylor. Is it increasing slightly? Is it increasing 
exponentially? That would be my question.
    Do you see a slight increase in those types of attacks, or 
do you see a dramatic increase in those types of attacks?
    General Sattler. Sir, that data is available, I just do not 
have it at my fingertips, but I will provide that for the 
record, yes, sir.
    Mr. Taylor. For the record, the reason for all of this is 
the Commandant was very, very professional in informing me of 
his desire to lessen the purchase of MRAPs, and I told him I 
wanted to think about it for a few days. Quite frankly, I would 
hope you would relate to him my desire that I just think that, 
as a Nation, given that now the whole world knows that a Humvee 
is vulnerable from below, that any potential foe is going to 
use that against the Humvees. I think, as a Nation, we would be 
much better served to have MRAPs in the inventory, even if they 
are never used, than to need them and have young people die 
needlessly because we did not, as a Nation, provide them. If 
they need to be modified so that they work better in certain 
terrain, which we do not need to detail, then I would prefer 
that the Marine Corps makes that a priority rather than its not 
asking for the vehicles.
    General Sattler. I would like to take both of those for the 
record, sir. I do not want to speculate on how the Marine Corps 
ran through their troops to task and looked at the tactics, 
techniques and procedures and what makes of vehicles they 
needed, sir. But I will take both of those back, sir.
    Mr. Taylor. Okay.
    Mr. McHugh.
    Mr. McHugh. Thank you, Mr. Chairman.
    Very briefly, in my several trips to Afghanistan as a 
member of the Intelligence Committee and as a member of this 
committee, everything that I have heard and seen in open 
session and on the record--as a member of the Intelligence 
Committee, I want to underscore that, open session, on the 
record--has suggested that the main problem we have vis-a-vis 
operational security in Afghanistan and vis-a-vis the Taliban 
and al Qaeda emanates from the western area of Pakistan as well 
as the FATA, the Federally Administered Tribal Areas.
    Do you agree with that, gentlemen?
    General Sattler. Yes, sir. There is definitely a flow of 
Taliban and forces that come from the Federally Administered 
Tribal Areas into Afghanistan. I would agree with that, yes, 
sir.
    Mr. McHugh. If we had the best of all worlds--and I would 
say, editorially, no one in Congress will take a back seat to 
this committee, and, at the risk of sounding somewhat 
egotistical, I would argue, myself in terms of arguing over the 
better part of the last decade of trying to increase end 
strength for our forces and trying to increase our flexibility 
vis-a-vis our numbers.
    However, if tomorrow we were able to locate 100,000 troops 
into Afghanistan, given the realities of our relationship with 
the Pakistani government and with our operational limitations 
into Pakistan, does that really do anything to get to the root 
of those sanctuaries in Pakistan? I mean, is that really our 
problem?
    General Sattler. I think, sir, as the Secretary and as the 
chairman both articulated, that problem needs to be first taken 
on by the Pakistani government. Our foreign assistance--some of 
the aid--we have put economic aid into the FATA as well as into 
the Frontier Corps, the corps responsible to eradicate that 
type of behavior inside the FATA. We were training and working 
with the Pakistani government to train the FATA. So it is a 
combination of giving the folks who live in the Federally 
Administered Tribal Area some economic advantage, i.e., 
something to show for their effort to eliminate this, and then 
giving them the capacity and the capability within their 
Frontier Corps. That is one of the steps that we are using 
right now in conjunction with the Pakistani government, sir.
    Mr. McHugh. So, until such time, if ever, the Pakistani 
government allows us more operability within their borders, 
those are the approaches that we have to rely upon. Is that 
correct?
    General Sattler. That is correct, sir, at this time.
    Mr. McHugh. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Taylor. The Chair thanks the gentleman from New York.
    We want to thank the ambassador and Lieutenant General 
Sattler. Both of you, thank you for your service to our Nation. 
Given both of your careers, thank you for putting your lives on 
the line for our Nation.
    The meeting is adjourned.
    [Whereupon, at 5:08 p.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                           December 11, 2007

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           December 11, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T3957.001
    
    [GRAPHIC] [TIFF OMITTED] T3957.002
    
    [GRAPHIC] [TIFF OMITTED] T3957.003
    


      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           December 11, 2007

=======================================================================

      
             RESPONSE TO QUESTION SUBMITTED BY MR. SKELTON

    Ambassador Edelman. In order to support the Department of State's 
efforts to combat Taliban ideology in Afghanistan, the Department of 
Defense has engaged in a multi-faceted strategic communications 
program. This program continues to highlight to the Afghan people and 
the international community the accomplishments of the government of 
Afghanistan and NATO/ISAF while contrasting these gains with the 
negative impact the Taliban and other insurgents have on daily lives in 
the region.
    At a recent strategic communications conference held at Bagram Air 
Base, it was said with some frustration that insurgents do not need to 
fact-check their propaganda. Insurgent claims of civilian casualties 
caused by ISAF combat engagements, for example, are regularly 
exaggerated and are most often flat out false. However, if they are 
able to get the story out first, we have a difficult time reacting to a 
story, albeit a false one, being shaped by the enemy.
    When dealing with enemy propaganda, the truth has always been our 
most powerful weapon. Unfortunately, in an age of information overload, 
separating those vital nuggets of important data from the background 
noise of situation reports and intelligence in a timely fashion and 
disseminating that information to the public is critical. To that end, 
my office provides guidance to the U.S. combatant commanders who have 
involvement in Afghanistan (CENTCOM, SOCOM) and those who interact with 
our ISAF allies (EUCOM) to do a better job pushing information up from 
the battlefield to our public affairs officers as quickly as possible.
    OSD also publishes regular DOD Information Sheets, representing a 
coordinated fact sheet for reference by our task forces in Afghanistan, 
our combatant commanders, our Defense AttacheAE1s in embassies in 
Europe and Central Asia, our colleagues at the State Department, and 
our allies at ISAF. These are integrated into talking points for press 
releases and interviews conducted by senior DOD, State, and NATO 
officials. Recent information sheets highlighted progress in Afghan 
health care, the callous and savage tactics of the Taliban against the 
civilian populace and other non-combatants, and the continued 
splintering of the Taliban through the successful efforts of the 
government of Afghanistan to get many former militants to defect. 
Copies of some of these DOD Information Sheets are being provided to 
the Committee for the record.
    OSD is working on a long-term approach to countering Taliban 
misinformation. We are working with our Allies and other partners to 
develop strategies and tactics that limit the effectiveness of Taliban 
propaganda. We are also working with non-governmental organizations to 
provide Afghani children with educational resources that do not have 
Taliban/extremist biases, thus making them less susceptible to 
extremist messages as they mature.
    We are also building on lessons learned from our information battle 
against al Qaeda in Iraq. This month, we are deploying to Afghanistan a 
team of public affairs officers from DOD and State who will improve the 
current U.S. Government public affairs infrastructure in Afghanistan. 
This will help facilitate greater accessibility for U.S. and 
international media in Afghanistan to see the progress being made in 
security, development, and governance. This will be a great force 
multiplier for our ongoing strategic communication efforts by Embassy 
Kabul and the ISAF commanders on the ground. [See page 47.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. LARSEN

    Ambassador Edelman. To combat the Afghan heroin threat, the Chinese 
Ministry of Public Security and National Narcotics Control Commission 
(NNCC) which lead China's counternarcotics (CN) efforts, have limited 
engagement with the U.S. through the Drug Enforcement Administration 
(DEA) Beijing Country Office. Since 2005, DOD has provided support to 
U.S. law enforcement CN efforts in China through the Joint Interagency 
Task Force-West. DEA believes this assistance is highly valuable in 
addressing CN with China.
    In April 2007, the Deputy Assistant Secretary of Defense for 
Counternarcotics, Counter-proliferation, and Global Threats visited 
Beijing where he met with NNCC officials to discuss DOD's role in 
counternarcotics (CN) efforts and possible opportunities for greater CN 
cooperation.
    However, due to the lack of People's Liberation Army (PLA) 
involvement in CN activities, there currently are no direct CN efforts 
between DOD and the PLA. The impact of narcotics trafficking on 
regional stability is an issue we will include in our discussions with 
the PLA during upcoming Defense Policy Coordination Talks. [See page 
41.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. MURPHY

    Secretary Gates. The U.S. has received a good return from using 
coalition support funds (CSF) to reimburse Pakistan, and Pakistan's 
contribution to the War on Terrorism has made us safer.
    Coalition Support Funds are not military assistance. They are a 
reimbursement for the actual costs Pakistani forces incurred in support 
of U.S. military operations in the War on Terrorism (WOT).
    The U.S. has reimbursed Pakistan $5.6B for the support it has 
rendered to U.S. forces since 2001. Major expense categories and costs 
are:

        <bullet>  Operations: $1.9B. Operate and maintain forward 
        ground and air bases; conduct air and maritime operations.

        <bullet>  Subsistence: $1.8B. Food, clothing, billeting, and 
        medical expenses for deployed forces.

        <bullet>  Reconstitution: $571M. Repair and maintenance of 
        weapons and vehicles; replacement of combat losses.

        <bullet>  Surveillance: $534M. Air defense radars, 
        surveillance, and operational watch costs.

        <bullet>  Logistics: $415M. Transportations, communications, 
        manual labor charges, road construction to facilitate movement 
        to remote areas.

        <bullet>  Helicopters: $235M. Lease of 26 Bell 412 helicopters 
        to provide air mobility.

        <bullet>  Ammunition: $111M.

    Coalition Support Funds have allowed Pakistan to deploy and 
maintain approximately 120,000 Army and paramilitary forces along the 
Pakistan-Afghanistan border.

        <bullet>  Since December 2001, Pakistan has conducted 91 major 
        and countless small operations, and suffered more than 1400 
        combat deaths in support of U.S. military operations in 
        Afghanistan.

        <bullet>  Pakistan has assisted in or captured and killed on 
        its own more Al Qaeda (AQ), Taliban, and other religious 
        extremists than any other coalition partner. Those captured 
        include 9/11 mastermind Khalid Sheik Muhammad, AQ operational 
        planner Abu Faraj al-Libbi, and Taliban military leader Mullah 
        Obeidullah.

    The CSF reimbursement process is deliberate and thorough, and there 
is no pressure to reimburse inflated or exaggerated claims.

        <bullet>  The U.S. Embassy in Islamabad receives and endorses 
        the claim, U.S. Central Command validates that the costs were 
        incurred in support of the WOT, and the OSD Comptroller 
        evaluates for reasonableness and alignment with previous 
        claims.

        <bullet>  The four congressional defense oversight committees 
        are notified before any reimbursement is made.

        <bullet>  The U.S. embassy in Islamabad is working closely with 
        Pakistan to ensure that the process for substantiating 
        Pakistan's claims for reimbursement is as thorough and 
        transparent as possible. [See page 30.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. CONAWAY

    Secretary Gates. In the past the USG has had challenges working 
with an Afghan policy of negotiated eradication. Eradication campaigns 
in southern Afghanistan had limited success because they were 
negotiated with local community leaders, and local politics dictated 
the terms. The most powerful farmers applied influence to avoid 
eradication. Therefore, this year the State Department should help the 
Afghans to conduct mandatory, non-negotiated eradication operations, 
and find a way to provide security to eradication units in the volatile 
southern provinces.
    At the provincial level, the State Department supports a Governor 
Led Eradication (GLE) program which accounts for the bulk of 
operations, but is subject to corruption and the will of Provincial 
Governors. Some authorities solicit bribes to bypass fields, or treat 
GLE as a ``tax'' and eradicate only a small portion of crops to satisfy 
GLE goals.
    At the national level, the State Department supports the Poppy 
Eradication Force (PEF) which is led by the central government. The PEF 
consists of approximately six hundred Afghan police trained in 
eradication and security, who operate in self-contained units, but who 
require additional force protection when operating in particularly 
hostile environments. We are working with the Afghan Ministry of 
Defense to provide this additional security for this spring. [See page 
32.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           December 11, 2007

=======================================================================

      
                 QUESTIONS SUBMITTED BY MS. SHEA-PORTER

    Ms. Shea-Porter. We all agree that the Taliban's ``spring 
offensive'' failed to materialize on a large scale as predicted. Would 
you attribute that more to preemptive action during OP ACHILLES or to 
the effectiveness of soft power applications in the region or other 
elements or all of the above? Should we anticipate a similar forecast 
regarding the Taliban as last year's or have we turned that corner?
    Secretary Gates. In 2007, the Afghan National Security Forces 
(ANSF), the NATO International Security Assistance Force (ISAF), and 
Coalition forces took the initiative away from the insurgency and 
disrupted the Taliban's anticipated ``spring offensive.'' This was due 
in large part to robust kinetic military operations, including 
Operation ACHILLES. Indeed, we have seen that the ANSF and their 
international partners dominate the battlefield and are able to defeat 
the Taliban in virtually all conventional engagements. Nonetheless, 
2007 was the most violent year in Afghanistan since Operation ENDURING 
FREEDOM (OEF) began. Violence levels in 2007 were up some 27% over 
2006. This increase in violence has been due in part to a greater 
number of engagements with the enemy: ANSF, ISAF, and Coalition forces 
have expanded their influence dramatically into areas where there had 
previously been no such presence. However, the increase in violence 
also reflects the insurgency's increasing reliance on asymmetric 
tactics (including suicide bombings, improvised explosive devices, 
etc.). The insurgency has demonstrated that it is adaptable and 
resilient. I expect it will continue to pose significant challenges to 
Afghanistan's security and stability in 2008. As such, I have 
recommended, and the President has approved, deploying 3,200 Marines to 
Afghanistan beginning in March 2008 in order to fill the critical 
maneuver battalion shortfall in Regional Command-South as well as 
assist with ANSF training and mentoring. By increasing the size and 
capabilities of the ANSF, they can increasingly take the lead in 
planning and executing operations. However, ultimately we cannot 
succeed against the insurgency through military means alone. It will 
require the application of a comprehensive counterinsurgency (COIN) 
approach that separates the population from the enemy. Achieving this 
goal demands a concerted and coordinated long-term effort, extending 
well beyond 2008, to enhance security conditions, strengthen the rule 
of law, extend governance, and improve economic conditions for ordinary 
Afghans.

                                  <all>

</pre></body></html>
